<html>
<title> - PRIVATE SECURITY OFFICER EMPLOYMENT AUTHORIZATION ACT OF 2003</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



     PRIVATE SECURITY OFFICER EMPLOYMENT AUTHORIZATION ACT OF 2003

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 1743

                               __________

                             MARCH 30, 2004

                               __________

                             Serial No. 89

                               __________

         Printed for the use of the Committee on the Judiciary


    Available via the World Wide Web: http://www.house.gov/judiciary

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
92-829                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
WILLIAM L. JENKINS, Tennessee        ZOE LOFGREN, California
CHRIS CANNON, Utah                   SHEILA JACKSON LEE, Texas
SPENCER BACHUS, Alabama              MAXINE WATERS, California
JOHN N. HOSTETTLER, Indiana          MARTIN T. MEEHAN, Massachusetts
MARK GREEN, Wisconsin                WILLIAM D. DELAHUNT, Massachusetts
RIC KELLER, Florida                  ROBERT WEXLER, Florida
MELISSA A. HART, Pennsylvania        TAMMY BALDWIN, Wisconsin
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana                  ADAM B. SCHIFF, California
J. RANDY FORBES, Virginia            LINDA T. SANCHEZ, California
STEVE KING, Iowa
JOHN R. CARTER, Texas
TOM FEENEY, Florida
MARSHA BLACKBURN, Tennessee

             Philip G. Kiko, Chief of Staff-General Counsel
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                 HOWARD COBLE, North Carolina, Chairman

TOM FEENEY, Florida                  ROBERT C. SCOTT, Virginia
BOB GOODLATTE, Virginia              ADAM B. SCHIFF, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
MARK GREEN, Wisconsin                MAXINE WATERS, California
RIC KELLER, Florida                  MARTIN T. MEEHAN, Massachusetts
MIKE PENCE, Indiana
J. RANDY FORBES, Virginia

                      Jay Apperson, Chief Counsel

                        Elizabeth Sokul, Counsel

                          Katy Crooks, Counsel

                     Bobby Vassar, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             MARCH 30, 2004

                           OPENING STATEMENT

                                                                   Page
The Honorable Howard Coble, a Representative in Congress From the 
  State of North Carolina, and Chairman, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     1
The Honorable Robert C. Scott, a Representative in Congress From 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     2

                               WITNESSES

Mr. Michael Kirkpatrick, Assistant Director, Federal Bureau of 
  Investigation, Criminal Justice Information Services Division, 
  Department of Justice
  Oral Testimony.................................................     4
  Prepared Statement.............................................     5
The Honorable Jeanine Pirro, District Attorney, Westchester 
  County, NY
  Oral Testimony.................................................     7
  Prepared Statement.............................................     9
Mr. Don Walker, Chairman, Pinkerton Security, Executive Member, 
  American Society of Industrial Security, Board of Directors, 
  National Association of Security Guard Companies
  Oral Testimony.................................................    11
  Prepared Statement.............................................    12
Mr. Lewis Maltby, President, National Work Rights Institute
  Oral Testimony.................................................    27
  Prepared Statement.............................................    28

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress From the State of Texas.............    41
Questions and Responses for the Record from Michael Kirkpatrick..    46
Questions and Responses for the Record from the Honorable Jeanine 
  Pirro..........................................................    51
Questions and Responses for the Record from Don Walker...........    52
Prepared Statement of Ira A. Lipman, Founder and Chairman, 
  Guardsmark, LLC................................................    69
Prepared Statement of William C. Whitmore, Jr., President and 
  Chief Executive Officer, Allied Security, LLC..................    79
Prepared Statement of Cecil Hogan, President, National Burglar & 
  Fire Alarm Association (NBFAA).................................    86
Prepared Statement of the National Association of Security 
  Companies......................................................    86
Letter from Warren B. Rudman, Counsel, Paul, Weiss, Rifkind, 
  Wharton, & Garrison LLP........................................    88

 
     PRIVATE SECURITY OFFICER EMPLOYMENT AUTHORIZATION ACT OF 2003

                              ----------                              


                        TUESDAY, MARCH 30, 2004

                  House of Representatives,
                  Subcommittee on Crime, Terrorism,
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 1:27 p.m., in 
Room 2141, Rayburn House Office Building, Hon. Howard Coble 
(Chair of the Subcommittee) presiding.
    Mr. Coble. Ladies and gentlemen, I apologize for the delay, 
but as I said to you previously, when we have bills from this 
Committee on the floor, we suspend the hearing time. The debate 
has been completed, I'm told, so now we can commence with our 
hearing.
    Today the Subcommittee on Crime, Terrorism, and Homeland 
Security is holding a hearing on S. 1743, the ``Private 
Security Officer Employment Authorization Act of 2003,'' and 
the need for background checks in general.
    More and more, private security officers are utilized to 
protect our nation's assets, both in the Government and in the 
private sector. These assets are as diverse as the protection 
of the neighborhood shopping center to the protection of 
nuclear power plants. These officers act as the eyes and ears 
of both private corporations and the law enforcement community. 
The problem is, as USA Today reported in January of 2003, most 
of the nation's 1 million plus guards are unlicensed, 
untrained, and not subject to background checks. Their 
burgeoning $12 billion industry is marked by high turnover, low 
pay, few benefits, and scant oversight. And according to 
Government officials and industry experts, little has changed 
since September 11, 2001.
    S. 1743 addresses the unique need of the security officer 
industry for criminal history background checks on employees 
and prospective employees. Without such checks, those entrusted 
to protect our citizens and critical infrastructure could be 
the very people the security guards are hired to protect 
against--that is, terrorists and criminals.
    As we continue waging the war against terrorism, other 
industries may also realize a need for criminal background 
checks but we must also examine the need for criminal history 
background checks, that may involve nonterrorism concerns, such 
as child care workers, for example. The Committee believes that 
certain types of employment should require additional screening 
of employees and applicants, but I have to wonder if the way 
that we have been addressing this issue, one bill at a time, is 
the most effective or most efficient.
    The bill we will hear about today can trace its history to 
1991. There are at least two dozen different laws with 
different definitions and different process structures 
directing the Attorney General and the FBI to conduct criminal 
history background checks. Since the September 11, 2001 
attacks, the number of checks conducted by the FBI's integrated 
automated fingerprint identification system has grown from an 
average of 41,400 per day to 48,215 per day. Other queries of 
the FBI databases for immigration, law enforcement, and other 
purposes have also shown significant increases.
    We're looking forward to hearing from our distinguished 
panel of witnesses today, and I am now pleased to recognize the 
distinguished gentleman from Virginia, the Ranking Member of 
the Subcommittee, Mr. Bobby Scott.
    Mr. Scott. Thank you, Mr. Chairman. I'm pleased to join you 
in convening the hearing on S. 1743, the ``Private Security 
Officer Employment Authorization Act of 2003.'' The private 
security workers play a vital role in not only securing our 
businesses and personal properties from theft and vandalism but 
also protecting critical infrastructure, both public and 
private, from threat of terrorism. Because of the nature of a 
security position and the importance of the work, it is 
necessary that employers have background information on 
applicants, such as their criminal record history, to ensure 
that they are trustworthy.
    The private security industry is a growing industry, 
particularly since the 9/11 tragedies, and is important to our 
economy. At a time when many of the traditional manufacturing 
jobs, which have been the foundation of our economy and the 
livelihood of so many families, we must ensure that we have 
sufficient workforce both in the quantity and the quality of 
people available for jobs.
    Criminal records checks can assist in weeding out 
untrustworthy persons but must not serve to block worthy people 
due to unsubstantial or unreliable information. Raw criminal 
record history information viewed by untrained eyes could do 
more harm than good in this regard and unfairly deprive an 
employee or applicant of a good work opportunity and the 
employer of a good worker, as well.
    So an important balance must be struck to ensure employers 
get relevant information on which to assess qualifications for 
important and sometimes sensitive work while avoiding confusing 
or unfairly prejudicial information. The Private Security 
Officer Employment Authorization Act goes a long way toward 
meeting that balance by limiting the access to felonies and 
crimes involving dishonesty within the last 10 years. While 
some issue has been raised about the advisability of unresolved 
arrest data, perhaps a balance can be struck there, as well. 
While we would not expect a bank to hire an applicant with an 
unresolved bank robbery arrest in the last year, we would not 
want bogus, insubstantial charges which are not prosecuted to 
deny employment, either.
    So Mr. Chairman, I think it's a good bill that may be 
improved with some relatively minor tweaking, with eventually 
becoming part of a more uniform system of criminal background 
checks that we may ask the Attorney General to develop.
    And in that vein, Mr. Chairman, I think since there's a 
consensus that we'd like the bill to be adopted, I would hope 
that the witnesses spend much of their time telling us which 
records should be available and how to make those records 
available and I yield back.
    Mr. Coble. I thank the gentleman.
    We're also pleased to have with us the distinguished 
gentleman from Florida and the distinguished gentleman from 
Ohio, Mr. Feeney and Mr. Chabot.
    Today we have four distinguished witnesses, one from the 
Federal Government, one from local government, one from the 
private sector, and the final witness from a public interest 
group serving worker rights.
    Our first witness is Mr. Michael Kirkpatrick, Assistant 
Director of the Federal Bureau of Investigation. Mr. 
Kirkpatrick is in charge of the FBI's Criminal Justice 
Information Services Division in Clarksburg, West Virginia, the 
largest division within the FBI. Mr. Kirkpatrick has over 21 
years of service in the FBI and has served at FBI posts in New 
Orleans, Pocatello, San Antonio, Cleveland, and Kansas City, 
Missouri. In his long and distinguished career he has 
investigated or supervised investigations relating to 
counterterrorism, counterintelligence, civil rights, applicant 
investigations, and white collar crime matters. Mr. Kirkpatrick 
is a certified public accountant and a graduate of Purdue 
University in West Lafayette, Louisiana.
    Our second witness is the honorable Jeanine Pirro, district 
attorney for Westchester County, New York. Ms. Pirro was first 
selected to serve as the chief law enforcement officer for 
Westchester County in 1993. Immediately prior to that she 
served as a county court judge after serving in the district 
attorney's office in many distinguished positions for over 15 
years. Ms. Pirro is the author of two books, several articles, 
and is a frequent commentator on national television. She has 
brought criminal justice issues to the people by hosting and 
producing two local cable television shows. Ms. Pirro has 
received numerous awards, including most recently the 
Distinguished Women in Law Enforcement Award from the New York 
Law Enforcement Foundation. She holds a bachelor's degree from 
the University of Buffalo and a Juris Doctorate from the Albany 
School of Law.
    Our next witness is Mr. Don Walker. Mr. Walker serves as 
chairman of Securitas Security Services, U.S.A., Inc., a 
subsidiary of the Securitas Group. With over 120,000 security 
officers and over $3 billion in revenues, Securitas is one of 
the world's largest and most respected international security 
companies.
    Mr. Walker has held numerous executive positions with 
Pinkerton's, Inc., including chairman, CEO, and president. He 
is past president of the American Society for Industrial 
Security and currently co-chairs their Commission for Security 
Guidelines. He's also a member of the board of directors of the 
National Association of Security Companies and a member of the 
International Association of Chiefs of Police. Mr. Walker is a 
former special agent of the Federal Bureau of Investigation and 
holds a bachelors degree from the University of Louisville and 
a Juris Doctorate from the Nashville School of Law.
    Our final witness is Mr. Louis Maltby, founder and 
president of the National Work Rights Institute. Mr. Maltby is 
a nationally recognized expert on human rights in the workplace 
and was an original founder of the National Workplace Rights 
Office of the American Civil Liberties Union. Mr. Maltby holds 
a Bachelor of Arts degree and a Juris Ddoctorate from the 
University of Pennsylvania.
    I apologize to you all for my lengthy introduction, but I 
think it's important that all of us recognize the background 
and the expertise that these witnesses do bring to the witness 
table.
    Lady and gentlemen, as you all have been previously advised 
by us, I hope that you can confine your oral testimony to the 
5-minute mark, and we impose the 5-minute mark against us, as 
well, when we examine you all. Your 5 minutes will be up when 
you see the red light illuminated on that little panel on your 
desk, and when the amber light illuminates, you will know that 
you'd better start scurrying because it'll soon be red.
    Thanks to all of you for being here, and Mr. Kirkpatrick, 
we will start with you.

 STATEMENT OF MICHAEL KIRKPATRICK, ASSISTANT DIRECTOR, FEDERAL 
BUREAU OF INVESTIGATION, CRIMINAL JUSTICE INFORMATION SERVICES 
                DIVISION, DEPARTMENT OF JUSTICE

    Mr. Kirkpatrick. Good afternoon, Mr. Chairman and Members 
of the Committee. Thank you for the opportunity to appear 
before you this afternoon to discuss the FBI's fingerprint 
identification program. I have provided a written statement for 
the record but I would like to make just a few comments.
    Since 1924, the FBI's been the national repository for 
fingerprints and related criminal history data. Today our 
fingerprint holdings are divided into two categories: criminal 
and civil. The FBI's master criminal fingerprint file contains 
the records of approximately 47 million individuals while our 
civil file contains the records of approximately 31 million 
individuals.
    The civil file primarily contains fingerprints of people 
who have served or are serving currently in the U.S. military 
or in the Federal Government. A civil fingerprint card may also 
be submitted regarding an individual who is seeking employment 
for a position of trust, such as Federal employment, adopting a 
child, seeking U.S. citizenship, or serving as a volunteer. 
Civil fingerprint checks are submitted to the FBI based upon a 
specific Federal law authorizing such a check or based upon a 
State or municipal statute which authorizes such a check in 
compliance with Public Law 92-544.
    Every day the FBI receives, as you pointed out, nearly 
50,000 fingerprint submissions. During the last fiscal year we 
received a total of almost 18 million fingerprint submissions. 
Of this amount, approximately 48 percent or 8.6 million of 
those fingerprint submissions were civil submissions. Our 
response goal for civil fingerprint cards electronically 
submitted to the FBI is to process and provide a response 
within 24 hours. Today we are meeting this goal 99 percent of 
the time and, in fact, our average response time is 
approximately 2 hours.
    So what is the benefit of conducting civil fingerprint 
background checks? Our statistics show that an average hit rate 
of 12 percent for civil fingerprint checks. This equates to 
approximately 900,000 checks every year being identified to 
individuals with existing criminal history records.
    In addition to the fingerprint check, all civil background 
checks undergo a name-based search against the wanted person 
file and the terrorist watch list that are located within the 
National Crime Information Center.
    As Congress considers expanding the occupations and 
professions which require fingerprint-based background checks, 
I would suggest that the need to develop a comprehensive 
national infrastructure to support such checks is vitally 
needed. Specifically, many law enforcement agencies, which 
typically are the starting point for the capture of civil 
fingerprints, are either not equipped to do so in an efficient 
manner or do not have the personnel resources to do so.
    State identification bureaus, which also play a key role in 
this process, are likewise often underequipped and 
understaffed. This limits the ability to conduct a thorough and 
timely check for those who are applying for positions of 
responsibility and trust and could ultimately result in the 
need to institute some type of prioritization of such checks as 
the existing infrastructure become overloaded.
    While the answers to the needs I have just raised are 
currently undetermined, the FBI, Department of Justice and our 
partners are in the process of finalizing the feasibility study 
required under section 108(d) of the Protect Act, Public Law 
108-21. This study will begin to answer many of the questions 
concerning how best to develop a national infrastructure to 
accommodate the growing demand for fingerprint-based background 
checks.
    Mr. Chairman, I'd like to invite you and Members of the 
Committee to visit us in West Virginia and personally see the 
investment in our state-of-the-art fingerprint technology. 
Thank you again for the privilege to appear before you and I 
will obviously be available for any questions that you might 
have.
    [The prepared statement of Mr. Kirkpatrick follows:]

              Prepared Statement of Michael D. Kirkpatrick

    GOOD MORNING MR. CHAIRMAN AND MEMBERS OF THE COMMITTEE. I AM 
MICHAEL D. KIRKPATRICK AND I AM THE ASSISTANT DIRECTOR IN CHARGE OF THE 
CRIMINAL JUSTICE INFORMATION SERVICES DIVISION OF THE FBI. I THANK YOU 
FOR THE OPPORTUNITY TO APPEAR BEFORE THIS COMMITTEE IN ORDER TO DISCUSS 
THE FBI'S FINGERPRINT IDENTIFICATION PROGRAM.
    SINCE 1924, THE FBI HAS BEEN THE NATIONAL REPOSITORY FOR 
FINGERPRINTS AND RELATED CRIMINAL HISTORY DATA. AT THAT TIME, 810,188 
FINGERPRINT RECORDS FROM THE NATIONAL BUREAU OF CRIMINAL IDENTIFICATION 
AND LEAVENWORTH PENITENTIARY WERE CONSOLIDATED TO FORM THE NUCLEUS OF 
THE FBI'S FILES. OVER THE YEARS, THE SIZE OF OUR FINGERPRINT FILES HAS 
GROWN AND THE DEMAND FOR THE PROGRAM'S SERVICES HAS STEADILY INCREASED. 
OUR FINGERPRINT HOLDINGS ARE DIVIDED INTO TWO CATEGORIES--CRIMINAL AND 
CIVIL. TODAY, THE FBI'S MASTER CRIMINAL FINGERPRINT FILE CONTAINS THE 
RECORDS OF APPROXIMATELY 47 MILLION INDIVIDUALS, WHILE OUR CIVIL FILE 
REPRESENTS APPROXIMATELY 30.7 MILLION INDIVIDUALS. THE CIVIL FILE 
PREDOMINANTLY CONTAINS FINGERPRINTS OF INDIVIDUALS WHO HAVE SERVED OR 
ARE SERVING IN THE U.S. MILITARY OR HAVE BEEN OR ARE EMPLOYED BY THE 
FEDERAL GOVERNMENT.
    A CRIMINAL CARD IS EXACTLY AS THE NAME IMPLIES. IT IS THE 
FINGERPRINTS OF AN INDIVIDUAL WHO HAS BEEN ARRESTED AND CHARGED WITH A 
CRIME. A CIVIL CARD IS SUBMITTED REGARDING AN INDIVIDUAL WHO IS SEEKING 
EMPLOYMENT IN CERTAIN POSITIONS, SUCH AS FEDERAL EMPLOYMENT, THE 
MILITARY, OR THE BANKING/SECURITIES INDUSTRY; OR IS ADOPTING A CHILD; 
SEEKING U.S. CITIZENSHIP; OR SERVING AS A VOLUNTEER (E.G., AT A CHILD 
OR SENIOR DAY CARE CENTER) AND REQUIRES A NATIONAL FINGERPRINT 
BACKGROUND CHECK AS PART OF THE SCREENING PROCESS. CIVIL FINGERPRINT 
CHECKS ARE SUBMITTED TO THE FBI BASED UPON A SPECIFIC FEDERAL LAW 
AUTHORIZING A NATIONAL FINGERPRINT BACKGROUND CHECK, OR BASED UPON A 
STATE STATUTE OR A MUNICIPAL ORDINANCE, IF AUTHORIZED BY A STATE 
STATUTE, AUTHORIZING A NATIONAL BACKGROUND CHECK IN COMPLIANCE WITH 
PUBLIC LAW 92-544.
    FOR ITS FIRST 75 YEARS OF EXISTENCE, THE PROCESSING OF INCOMING 
FINGERPRINT CARDS BY THE FBI WAS PREDOMINANTLY A MANUAL, TIME 
CONSUMING, LABOR INTENSIVE PROCESS. FINGERPRINT CARDS WERE MAILED TO 
THE FBI FOR PROCESSING AND A PAPER-BASED RESPONSE WAS MAILED BACK. IT 
WOULD TAKE ANYWHERE FROM WEEKS TO MONTHS TO PROCESS A FINGERPRINT CARD.
    HOWEVER, THAT ALL CHANGED ON JULY 28, 1999, WITH THE IMPLEMENTATION 
OF THE INTEGRATED AUTOMATED FINGERPRINT IDENTIFICATION SYSTEM, OR 
IAFIS. THE IAFIS WAS THE DAWN OF A NEW ERA FOR THE FBI'S FINGERPRINT 
IDENTIFICATION PROGRAM AS IT PERMITS THE PROCESSING OF ALL INCOMING 
FINGERPRINT SUBMISSIONS IN A TOTALLY ELECTRONIC ENVIRONMENT.
    EVERY DAY, THE FBI RECEIVES NEARLY 50,000 FINGERPRINT SUBMISSIONS, 
WHICH ARE SENT TO US IN EITHER AN ELECTRONIC FORMAT OR PAPER-BASED. THE 
PAPER-BASED SUBMISSIONS ARE CONVERTED TO AN ELECTRONIC FORMAT PRIOR TO 
PROCESSING ON THE IAFIS. DURING FISCAL YEAR 2003, THE FBI RECEIVED A 
TOTAL OF 17,736,541 FINGERPRINT SUBMISSIONS. OF THIS TOTAL, 48 PERCENT, 
OR APPROXIMATELY 8.6 MILLION, WERE CIVIL FINGERPRINT SUBMISSIONS. OF 
THE NEARLY 8.6 MILLION CIVIL SUBMISSIONS, 73 PERCENT, OR SLIGHTLY MORE 
THAN 6.2 MILLION, WERE SENT TO US ELECTRONICALLY.
    IN ADDITION TO THE ELECTRONIC OR PAPER-BASED METHODS OF SUBMITTING 
FINGERPRINTS TO THE FBI, THERE ARE TWO PATHS A CIVIL FINGERPRINT MAY 
TRAVEL. THE MOST COMMON METHOD STARTS WITH THE FINGERPRINTING OF AN 
INDIVIDUAL AT A BOOKING STATION. THE PRINTS ARE FORWARDED TO THE 
AUTHORIZED STATE AGENCY FOR A CHECK AGAINST STATE RECORDS. THE STATE 
AGENCY THEN FORWARDS THE PRINTS TO THE FBI FOR A NATIONAL BACKGROUND 
CHECK. THIS METHOD COMPLIES WITH PUBLIC LAW 92-544 AND PROVIDES A MORE 
COMPLETE BACKGROUND CHECK.
    THE SECOND PATH INVOLVES THE USE OF A CHANNELING AGENCY, SUCH AS 
THE AMERICAN BANKERS ASSOCIATION, ABA, OR THE OFFICE OF PERSONNEL 
MANAGEMENT, OPM. THE ABA AND THE OPM, FOR EXAMPLE, SERVE AS A SINGLE 
POINT FOR FORWARDING CIVIL FINGERPRINT CHECKS DIRECTLY TO THE FBI. 
UNDER THIS METHOD, ONLY A NATIONAL BACKGROUND CHECK IS CONDUCTED.
    OUR GOAL FOR CIVIL FINGERPRINT CARDS ELECTRONICALLY SUBMITTED TO 
THE FBI IS TO PROCESS AND PROVIDE A RESPONSE WITHIN 24 HOURS. TODAY, WE 
ARE MEETING THIS GOAL 99 PERCENT OF THE TIME, AND OUR AVERAGE RESPONSE 
TIME IS APPROXIMATELY TWO HOURS. ONCE PAPER-BASED SUBMISSIONS ARE 
RECEIVED BY THE FBI THEY ARE CONVERTED TO AN ELECTRONIC FORMAT, 
INJECTED INTO THE IAFIS FOR PROCESSING, A PAPER-BASED RESPONSE IS 
GENERATED, AND THAT RESPONSE IS THEN MAILED TO THE CONTRIBUTOR. IT 
TAKES BETWEEN FIVE AND TEN BUSINESS DAYS FROM THE TIME A PAPER-BASED 
CIVIL CARD IS MAILED TO THE FBI AND A RESPONSE IS RECEIVED BY THE 
CONTRIBUTOR.
    SO, WHAT IS THE BENEFIT OF CONDUCTING CIVIL FINGERPRINT BACKGROUND 
CHECKS? OUR STATISTICS SHOW AN ANNUAL HIT RATE OF 12 PERCENT. THIS 
EQUATES TO APPROXIMATELY 900,000 CHECKS PER YEAR BEING IDENTIFIED TO 
INDIVIDUALS WITH EXISTING CRIMINAL HISTORY RECORDS. IN ADDITION TO THE 
FINGERPRINT CHECK, ALL CIVIL SUBMISSIONS UNDERGO A NAME-BASED SEARCH OF 
THE SUBJECT AGAINST THE WANTED PERSON FILE AND THE TERRORIST WATCH LIST 
LOCATED WITHIN THE NATIONAL CRIME INFORMATION CENTER.
    THE FBI CHARGES A FEE FOR PROCESSING CIVIL FINGERPRINT SUBMISSIONS. 
OUR FEE FOR THIS SERVICE RANGES FROM $16 TO $22 DEPENDING ON THE TYPE 
OF SERVICE REQUESTED. THE FBI USES THIS MONEY TO OFFSET THE OVERHEAD 
AND OPERATIONAL COSTS OF PROVIDING THIS SERVICE, AND FOR MAINTENANCE 
AND TECHNOLOGICAL REFRESHMENTS TO OUR NATIONAL COMPUTERIZED DATABASES.
    AS CONGRESS CONSIDERS EXPANDING THE OCCUPATIONS AND PROFESSIONS 
WHICH REQUIRE FINGERPRINT-BASED BACKGROUND CHECKS, I BELIEVE IT MUST 
ALSO CONSIDER THE VITAL NEED TO DEVELOP A COMPREHENSIVE NATIONAL 
INFRASTRUCTURE TO SUPPORT SUCH CHECKS, INCLUDING THE MEANS OF 
COLLECTING THE REQUIRED FINGERPRINTS, AND PROCESSING THE CHECKS. 
SPECIFICALLY, MANY LAW ENFORCEMENT AGENCIES, SUCH AS POLICE DEPARTMENTS 
AND JAIL FACILITIES, WHICH TYPICALLY ARE THE STARTING POINT FOR THE 
CAPTURE OF FINGERPRINTS, DO NOT HAVE THE RESOURCES TO CAPTURE THE 
PRINTS FOR A SIGNIFICANTLY HIGHER VOLUME OF NEW CIVIL CHECKS, EITHER 
ELECTRONICALLY OR MANUALLY. IN ADDITION, FOR MOST OF THESE NON-CRIMINAL 
JUSTICE CHECKS, A LAW ENFORCEMENT AGENCY IS NOT THE MOST APPROPRIATE 
VENUE FOR COLLECTING THE PRINTS. STATE IDENTIFICATION BUREAUS, WHICH 
ALSO PLAY A KEY ROLE IN THIS PROCESS, ARE LIKEWISE OFTEN UNDER-EQUIPPED 
AND UNDER-STAFFED. THIS LIMITS THE ABILITY TO CONDUCT A THOROUGH AND 
TIMELY CIVIL CHECKS AND COULD EVENTUALLY RESULT IN THE NEED TO 
INSTITUTE SOME TYPE OF PRIORITIZATION OF SUCH CHECKS AS THE EXISTING 
INFRASTRUCTURE BECOMES OVERLOADED.
    WHILE THE ANSWERS TO THE QUESTIONS I HAVE JUST RAISED ARE CURRENTLY 
UNDETERMINED, THE FBI, DEPARTMENT OF JUSTICE, AND OUR PARTNERS ARE IN 
THE PROCESS OF FINALIZING THE FEASIBILITY STUDY REQUIRED BY SECTION 
108(D) OF THE ``PROTECT ACT,'' PUBLIC LAW NO. 108-21, LEGISLATION 
ENACTED LAST YEAR TO PROVIDE NEW INVESTIGATIVE AND PROSECUTORIAL 
REMEDIES AND OTHER TOOLS TO COMBAT THE EXPLOITATION OF CHILDREN. THIS 
STUDY IS REQUIRED TO ADDRESS FOURTEEN SPECIFIC AREAS, SUCH AS ``THE 
COST OF DEVELOPMENT AND OPERATION OF . . . THE INFRASTRUCTURE NECESSARY 
TO ESTABLISH A NATIONWIDE FINGERPRINT-BASED AND OTHER CRIMINAL 
BACKGROUND CHECK SYSTEM.'' THE STUDY WILL BEGIN TO ANSWER MANY OF THE 
QUESTIONS CONCERNING HOW BEST TO DEVELOP SUCH A NATIONAL INFRASTRUCTURE 
TO ACCOMMODATE THE INCREASING DEMAND FOR FINGERPRINT-BASED BACKGROUND 
CHECKS.
    IN CLOSING, I WOULD LIKE TO INVITE THE MEMBERS OF THE COMMITTEE TO 
VISIT THE FBI WEST VIRGINIA COMPLEX AND PERSONALLY SEE OUR DYANAMIC 
FINGERPRINT PROGRAM AND STATE-OF-THE-ART FACILITIES. I AGAIN THANK YOU 
FOR THE PRIVILEGE TO APPEAR BEFORE THIS COMMITTEE. I AM AVAILABLE FOR 
ANY QUESTIONS YOU MAY HAVE.

    Mr. Coble. Thank you, Mr. Kirkpatrick. And we have been 
joined by the distinguished gentleman from Virginia, Mr. 
Goodlatte, and the distinguished gentleman from Wisconsin, Mr. 
Green.
    Ms. Pirro, you're recognized for 5 minutes.

           STATEMENT OF THE HONORABLE JEANINE PIRRO, 
           DISTRICT ATTORNEY, WESTCHESTER COUNTY, NY

    Ms. Pirro. Thank you. Mr. Chairman and Members of the 
Committee, I wish to thank you for inviting me to speak this 
afternoon and I've come here to urge you to implement 
safeguards that employers desperately need in order to make 
informed hiring decisions. After more than 25 years in law 
enforcement I have learned that the first order of Government 
is the protection of its citizens and Government fails when it 
does not give employers the right to know who they are hiring 
and when the Government allows individuals with ulterior 
motives to fake their identifications, to apply for jobs 
without verification of who they truly are.
    I come from a county of almost 1 million people and we 
prosecute almost 35,000 cases every year. I have seen virtually 
every kind of violation of the law in my work as both a judge 
and a prosecutor and what I know is that every day individuals 
seek employment in communities around this country for 
sensitive positions, positions of trust, and a history of 
maintaining or violating the laws of our society are essential 
factors to be weighed by prospective employers before making a 
hiring decision.
    The public policy objective is self-evident. Employers 
deserve access to public information regarding those who seek 
their trust, yet our laws do not provide a uniform mechanism 
for most employers to access what is perhaps the most telling 
information about an individual--a person's criminal record.
    There are many things about our lives that we are entitled 
to keep private. Criminal convictions are not among them. 
Criminal convictions are a matter of public record and if 
Government fails to even assist in securing the safety of its 
citizens it is abrogating its most essential duty.
    You have the means to provide broad access to these records 
and I would argue the obligation to do so. The lack of 
uniformity in our statutes across the country has led to the 
hiring of individuals who misrepresent themselves and their 
past in order to obtain a job. In an age of identity theft, 
even the documentation an applicant might supply is potentially 
suspect. And in the post-9/11 era when we restrict legitimate 
employers from finding out critical information about job 
applicants, we do so at the risk of public safety.
    A piecemeal approach to this issue is not the answer. By 
selectively identifying careers that will allow employers to 
seek access to public records containing criminal histories, we 
effectively preclude other equally desiring employers from the 
same access. It is time for Congress to act and to do so with 
recognition that it is in the best interest not only of 
business but of our nation to craft a statute that allows for 
inclusive rather than exclusive access to these already public 
records.
    Allow me to give you a couple of examples of how piecemeal 
efforts at the State level have resulted in far too many holes. 
In Westchester County we are entitled to know if someone is 
working in a day care facility whether that individual has a 
previous criminal record and yet private individuals who hire 
someone to care for their children at home are not entitled to 
that very same information. And it was only when a 10-year-old 
was thrown against a wall in Westchester and killed--a 10-
month-old; excuse me--that we decided that we should change the 
law to give parents access to information of prior criminal 
histories. In that case the individual had a prior history, 
criminal history, that the parent was not allowed to access.
    Most employers have no way of knowing who they're hiring. 
Just 2 weeks ago I addressed the American Campers Association 
when I heard an outcry from camp directors that their efforts 
to run background checks on prospective employees are stymied 
by lax or nonexistent State statutes. The reality for them is 
that they're forced to rely on individuals who simply want the 
job, putting their campers and their business and reputation at 
risk.
    Our laws are a disjointed hodgepodge of narrow provisions 
enacted one at a time on a position-by-position basis with no 
attempt to rationalize why one sensitive position is subject to 
a criminal history check while a different comparably sensitive 
position is not.
    On school buses in New York there are often two adults in 
close confinement with our children--the bus driver and the 
monitor. The bus drivers are subject to criminal background 
checks. The bus monitor is not. I cannot tell you how many 
monitors we've prosecuted in Westchester who would not have 
been hired had there been any information that could be 
verified regarding their criminal backgrounds.
    And after a case in which a public school teacher sodomized 
an 8- and 9-year-old boy in Westchester we found out that that 
individual had had three prior criminal convictions that the 
school could not access. The school was entitled to that 
information and those children should not have been subjected 
to that sodomy, which will forever affect their lives.
    Those who affect children and work with children are but 
one example. The issue here is not whether someone with a 
criminal past should be disqualified from all employment. Those 
who've been punished for breaking our laws should have every 
reasonable opportunity to progress toward a normal law-abiding 
life. But when there is a relationship between their criminal 
history and the job, the employer should be allowed to make an 
informed decision.
    Just this morning when I was at the airport coming here----
    Mr. Coble. Ms. Pirro, if you can wrap up?
    Ms. Pirro. I am.
    Mr. Coble. Your time has expired.
    Ms. Pirro. I'm right there.
    Mr. Coble. All right.
    Ms. Pirro. I was required to take off my shoes, my jacket, 
my coat, and be scanned. This is a privacy issue and I was more 
than willing to subject myself to that for national security 
and safety. And yet criminal histories that are already public 
records are not allowed to be accessed and I believe that we 
have an obligation to give to employers the right to know who 
it is they're hiring. Thank you.
    [The prepared statement of Ms. Pirro follows:]

               Prepared Statement of Jeanine Ferris Pirro

    Mr. Chairman, Members of the Committee:
    I first wish to thank the Committee for inviting me to speak this 
afternoon. I have come to Washington to urge you to implement 
safeguards employers desperately need in order to make informed hiring 
decisions.
    Every day individuals seek employment in communities around the 
United States for sensitive positions--positions of trust. Histories of 
maintaining or violating the laws of society are essential factors to 
be weighed by prospective employers before making these hiring 
decisions. The public policy objective is self-evident: employers 
deserve access to public information regarding those who seek their 
trust.
    Yet, our laws do not provide a uniform mechanism for most employers 
to access what is perhaps the most telling historical information about 
an individual--the person's criminal record. There are many things 
about our lives that we are entitled to keep private. Criminal 
convictions are not among them. Criminal convictions are matters of 
public record. If government fails to assist in securing the safety of 
its citizens, it is abrogating its most essential duty. You have the 
means to provide broad access to these records and, I would argue, an 
obligation to do so.
    This lack of uniformity in our statutes has lead to the hiring of 
individuals who have misrepresented their past in order to obtain their 
positions. In the age of identity theft, even the documentation an 
applicant might supply is potentially suspect. And in the post-9/11 
era, when we restrict legitimate employers from finding out critical 
information about job applicants, we do so at the risk of safety and 
security.
    A piecemeal approach to this issue is not the answer. By 
selectively identifying careers that will allow employers to seek 
access to public records containing criminal histories, we effectively 
preclude other equally deserving employers the same access. It is time 
for Congress to act and to do so with the recognition that it is in the 
best interest not only of business, but of our nation to craft a 
statute that allows for inclusive rather than exclusive access to these 
public records.
    Allow me to give you a sense of how piecemeal efforts to solve this 
issue at the state level have resulted in far too many holes in the 
safety net.
    In almost three decades of service to law enforcement, it has 
become abundantly clear to me that pedophiles are the most cunning, 
devious and deceptive of criminals. It is almost invariably the case 
that pedophiles will groom their intended victims before undertaking 
actual sexual contact. The most effective means of ensuring that their 
crimes are not uncovered is to establish themselves as respected and 
responsible members of society. Frequently, this involves finding 
employment that puts them in direct contact with children.
    Employers are permitted by law to inquire if an applicant has ever 
been convicted of a crime, permitted to require a formal statement on a 
written application to this effect, permitted to deny employment if the 
listed criminal conviction bears a relationship with the job offered, 
and to discharge the employee if the written statement is false.
    But with selected exceptions, most employers have no way of 
determining whether the statement the employee has given is the truth, 
or is a lie. Just two weeks ago, I addressed the American Campers 
Association where I heard an outcry from camp directors that their 
efforts to run background checks on prospective employees are stymied 
by lax or non-existent state statutes. The reality for them is that 
they are forced to reply perhaps on the false assertions of an 
applicant, putting their campers and themselves at risk. And they are 
but one category of employers who want access to these public records--
access which is denied.
    The fact is that our laws in this area are a disjointed hodge-podge 
of narrow provisions, enacted one at a time on a position-by-position 
basis, with no attempt to rationalize why one sensitive position is 
subject to a criminal history check while a different, comparably 
sensitive position is not. At best, legislatures across this country 
are constantly closing the barn door after the horse has escaped: 
enacting legislation in the aftermath of a tragedy, limited to the 
singular situation that tragedy involved.
    Under New York law, for example, child-care employees in a day care 
facility are subject to mandatory fingerprinting and criminal history 
checks. But in the early 1990's similar caregivers working in their 
employer's homes were not. As a result, when a family in my county 
hired a young woman as the nanny for their 10-month-old son Kieran, and 
attempted to conduct a criminal background check on her, they were told 
that New York law did not permit it. So they never knew of the woman's 
criminal past, which she indeed had. Not until it was too late. Not 
until after the woman hurled 10-month-old Kieran across the room, 
killing him.
    As a result of this brutal homicide, working with Governor Pataki 
and the New York Legislature, in 1998, we passed ``Kieran's Law'' to 
remedy this situation. But ``Kieran's Law'' remedies only this 
situation. Scores of similar disparities continue to exist.
    For example, on school buses in New York, there are often two 
adults in close confinement with our children: the bus driver and the 
bus monitor. School bus drivers are subject to criminal background 
checks; school bus monitors are not.
    After a case in which a public school teacher with a criminal 
history was convicted of sodomizing two young boys, New York enacted 
the ``Safe Schools Against Violence in Education'' Law which required 
fingerprinting and criminal background checks for all prospective 
public school teachers and public school employees and volunteers. But 
the law does not affect currently employed teachers, or teachers in 
private schools, or volunteers working in group homes, or camp 
employees, or the employees of private contactors. No, the unfortunate 
reality is that we will have to await the commission of future criminal 
acts before these criminal history problems will be addressed.
    Those charged with the care of children are but one example. The 
necessity for employers' access to criminal record checks holds true 
for any number of prospective employers engaged in sensitive commerce. 
Must we wait until the employer's faith is betrayed by the applicant 
who repeats his crimes? What answer do we have for an employer who 
unwittingly hires an individual with a criminal history of violence? 
Can we afford to take the chance that a job applicant has told the 
truth when in fact her intent is to gain access, through this 
employment, to new victims? Are terrorists any different than 
pedophiles when it comes to hiding their past and, thus, their motives 
for obtaining employment?
    The issue here is not whether someone with a criminal past should 
be disqualified from all employment. Those who have been punished for 
breaking our laws should have every reasonable opportunity to progress 
toward a normal, law-abiding life. But when there is a relationship 
between the employee's criminal history and the job, employers should 
be allowed to make informed decisions.
    We exist in a modern, mobile, Internet-connected society. This is 
the information age. Yet we provide the opportunity for prospective 
employees get away with lying because we deny employers the right to 
access public records in order to verify the information they have been 
given.
    I ask the members of Congress to consider that a piecemeal approach 
to criminal history checks has created a flawed dragnet--catching some, 
while letting the rest pass through. We shouldn't wait until more 
tragedies occur to address this problem. And we shouldn't have to 
engage the laborious legislative process every time we realize that a 
criminal history check is appropriate in a specific situation.
    I respectfully ask this Committee to recognize the importance of a 
standard, uniform procedure which can be utilized by all employers, 
whose foremost interest--like our own--is protection and security.

    Mr. Coble. Thank you, Ms. Pirro.
    Mr. Walker?

    STATEMENT OF DON WALKER, CHAIRMAN, PINKERTON SECURITY, 
  EXECUTIVE MEMBER, AMERICAN SOCIETY OF INDUSTRIAL SECURITY, 
  BOARD OF DIRECTORS, NATIONAL ASSOCIATION OF SECURITY GUARD 
                           COMPANIES

    Mr. Walker. Mr. Chairman, Members of the Subcommittee, I 
appreciate the opportunity to be here to testify on behalf of 
S. 1743 and urge the quick adoption by the U.S. House of 
Representatives. We badly need this legislation to ensure that 
persons who are convicted of serious crimes are identified 
before they are deployed to protect our citizens and their 
property.
    There are roughly 800,000 sworn law enforcement officers in 
the United States to protect a population of over 290 million 
people. Police agencies are called upon to deter and solve 
serious crimes while being engaged in a fight against potential 
terrorist attacks orchestrated from abroad. Unfortunately there 
is simply neither the public resources nor the personnel to do 
the job comprehensively, as we would like to see it done. 
Therefore in this era of increased demand for better 
protection, private security officers are being asked to fill 
the gap, fill the gap in homeland security.
    Today the private security industry employs nearly 2 
million people. Security personnel are on duty protecting 
America in places where our citizens are working, living, and 
playing. In addition, 85 percent of the nation's infrastructure 
is owned and operated by private industry and private security 
officers protect the vast majority of those assets.
    Also, most of the first responders in the case of an attack 
or other emergency in an office building, manufacturing plant, 
public utility, shopping malls, and so forth are private 
security officers.
    Generally the regulation for private security officers is 
left to the State. However, 10 States do not have laws 
regulating private security and less than one-half of the 
States require an FBI criminal history check before licensing.
    Why should we care? I'd like to give you two examples. One 
is in the State of California. In 2003 there were over 69,000 
applicants for a Guard Card. Of those applicants, 9,000 or more 
than 13 percent of the applicants were rejected after 
information was received from the FBI Criminal Information 
System and these individuals were denied a Guard Card. 
Interestingly, the three most common reasons for denial were 
one, sex-related crimes; two, battery and robbery; and three, 
burglary. Data also showed in California that registered sex of 
fenders frequently attempted to obtain a Guard Card.
    In my home State of Illinois a review of January 2004 
records for applicants that applied for a guard position showed 
that the FBI criminal history check provided serious criminal 
information four times more frequently than the State-wide 
check within the State of Illinois.
    Another problem within our industry is turnover and if you 
use a conservative 50 percent turnover rate there are more than 
79,000 security officers that are being hired each month with 
less than one-half of those individuals being screened by an 
FBI check. That's over 300,000 people being employed since the 
Senate passed this bill in November.
    Another factor which has been alluded to is the problem of 
fraud, applicant fraud and identify and identity theft.
    Mr. Chairman, to the specifics of this bill, first of all, 
it's the product of a bipartisan group of senators who share 
the belief that Congress needs to act swiftly to prevent 
persons who have committed serious crimes from being hired into 
positions of trust to protect their constituents, their 
families, their homes, and places of employment. 1743 is not a 
panacea. It is an important and necessary tool for the security 
industry to keep the bad apples from being placed in positions 
of responsibility.
    Finally, the bill covers three major objectives. One, the 
bill permits security companies to request an FBI fingerprint 
check regarding prospective employees. Two, the bill protects 
the individual's privacy by requiring that an applicant provide 
a written authorization to an employer requesting the FBI 
record check before such check is initiated. Further, the form 
and content of the information provided to the employer will be 
consistent with State laws and regulations. Finally, the bill 
does not impose any unfunded mandates on the States and 
employers may be assessed a fee to handle their requests. In 
addition, the States may opt out or decline to participate in 
the system.
    In summary, Mr. Chairman, passage of 1743 will be a much 
improved system and provide quality controls that will block 
the most serious offenders from gaining employment in the 
private security industry. The industry needs it but, more 
importantly, our nation needs it. Thank you very much.
    [The prepared statement of Mr. Walker follows:]

                Prepared Statement of Don Wilson Walker

    Mr. Chairman and Members of the Subcommittee, I am Don Walker, 
Chairman of Securitas Security Services USA, Inc. Securitas is a world-
wide leader in providing security services to individuals, businesses, 
government and private entities.
    I appear today in my capacity as Chairman of the nation's largest 
employer of private security officers and as a former President of the 
ASIS International (ASIS), the security industry's largest professional 
membership organization with over 35,000 members. I am also co-chair of 
the ASIS Security Guidelines Commission.
    I very much appreciate the opportunity to testify today in support 
of S. 1743, the ``Private Security Officer Employment Authorization Act 
of 2003,'' and to urge its quick adoption by the U.S. House of 
Representatives. We badly need this legislation to ensure that persons 
who are convicted of serious crimes are identified before they are 
deployed to protect our citizens and their property. Americans need to 
know that private security officers are part of the solution--not an 
impediment--to preventing harm from any foreign or domestic threat.
    By way of background, Securitas AB (Securitas), our parent company, 
is organized and headquartered in Sweden. Securitas acquired 
Pinkerton's, Inc. (Pinkerton) in 1999. Although we generally operate in 
the United States under the Securitas name, Pinkerton still operates in 
several localities. At the time of the acquisition, Pinkerton was the 
nation's oldest, largest and one of the most respected security officer 
companies. Indeed, Pinkerton remains one of the most recognizable brand 
names for any product or service around the globe.
    Pinkerton has a rich history dating back to1850, when the legendary 
Allan Pinkerton, the ``original private eye,'' founded the company. 
Since its inception, the company has become synonymous with protecting 
the American public from an array of threats from outlaws, bandits and 
thieves. In 1861, Pinkerton achieved national recognition when he 
uncovered and foiled a threat to assassinate Abraham Lincoln. Later 
that year, Pinkerton formed the federal Secret Service, of which he 
became chief. Early in the company's history, Pinkerton apprehended 
some of the nation's most notorious train and/or bank robbers and 
started the interstate identification system to track bandits from 
State to State. In the time since, Pinkerton has been at the forefront 
of improving the screening, pay and training of security officers.
    In 2000, Securitas acquired another legendary American private 
security company. Burns International was founded in 1909 by William J. 
Burns, who was known as ``the greatest detective the U.S. had 
produced.'' In 1921, he was appointed director of the newly formed 
Bureau of Investigation that later became the FBI. Like Allan 
Pinkerton, Burns' drive, determination and commitment to service helped 
his company grow from a small detective agency to the second largest 
security provider in the U. S.
    Long before the tragic events of September 11, Securitas and our 
predecessors called for higher standards and qualifications for private 
security officers. Our personnel and customers--your constituents--
deserve no less.
    I reference this history as a way of introducing the company's 
credentials as well as its long and proud tradition and experience of 
protecting the country's human and physical resources. I am proud to 
say that Securitas USA, as part of the global Securitas Group, remains 
committed to the principles of our founders. Securitas is built around 
a core set of values--Integrity, Vigilance and Helpfulness. Like other 
responsible employers in the U. S. security industry, we must 
constantly strive to improve the standards of our profession. Our 
people are the essence of Securitas and we believe in building 
relationships based on mutual respect and dignity with all our 
employees. To enable our people to carry out their professional duties, 
we constantly provide training programs and promote higher wages and 
industry standards.
    Mr. Chairman, I would like to cite one simple but very important 
statistic that is at the heart of the debate today over whether to 
authorize a national system for criminal background checks for private 
security officers.
    The fact is this: There are roughly 800,000 sworn law enforcement 
officers in the United States today to protect a population of over 290 
million residents. Never in the history of the nation have law 
enforcement agencies been called upon to fulfill two fundamentally 
different and competing missions--to deter domestic crime while also 
being engaged in the fight against potentially new and devastating 
terrorist attacks orchestrated from abroad. Unfortunately, there are 
simply neither the public resources nor the personnel to do the job as 
completely or comprehensively as we all would like. Consequently, in 
this era of heightened need and demand for better security, private 
security officers are being asked to fill the gap.
    The role of private security was recently highlighted by Admiral 
James Loy, the Deputy Secretary of the Department of Homeland Security. 
He stated at a recent conference in Washington that, ``. . . unlike 
wars of the past . . . this is not going to be a situation where the 
federal government simply does it for the nation.'' We concur.
    Today, private security companies collectively employ nearly two 
million security officers nationwide. As we speak, security personnel 
are on duty protecting American businesses, public offices, schools, 
shopping centers and housing communities. In addition, private security 
officers are stationed at many of the nation's critical infrastructure 
sites and facilities including nuclear plants, public utilities, oil 
pipelines, ports, bridges, tunnels and many other places where our 
citizens live, work and play.
    Recent estimates indicate that 85% of the nation's infrastructure 
is owned and operated by private industry. Private security officers 
protect the vast majority of these assets. Similarly, the overwhelming 
majority of ``first responders,'' who are first on the scene in the 
case of an attack or other emergency situation in our manufacturing 
plants, office buildings, banks, public utilities, shopping malls, are, 
more often than not, private security officers.
    Mr. Chairman, a 2003 Presidential report entitled, ``The National 
Strategy for the Physical Protection of Critical Infrastructure and Key 
Assets,'' noted . . . ``the private sector generally remains the first 
line of defense for its own facilities.'' Further, the report states 
that the [Strategy] ``provides a foundation for building and fostering 
the cooperative environment in which government, industry and private 
citizens can carry out their respective protection responsibilities 
more effectively and efficiently.'' The legislation under discussion 
today is but one of many key elements that are required in order to 
fulfill our responsibilities as providers of reliable security 
services.
    Clearly, private security is an integral part of our homeland 
security. In times of crisis and disaster, businesses rely on private 
security to protect people and property. And yet, with so much at risk, 
and so much being protected by private security forces, there is little 
in the way of federal oversight or regulation of the people we employ.
    For the most part, regulation of the private security officers is 
left to the States. Only forty (40) States have laws on their books 
regulating security officers. Of the forty (40) States with licensing 
requirements, thirty-one (31) States either permit or require an 
applicant to undergo a FBI fingerprint check for prior criminal 
history. However, in those thirty-one (31) states, an FBI fingerprint/
background check is permitted but not required in some jurisdictions, 
and required in seven (7) states when the person is applying for an 
armed guard position only. Thus, more than half the States do not 
automatically subject applicants to some type of background check. (See 
Attachments 1 and 2.)
    Why should we care? What does it matter? Here's why Congress needs 
to act.
    In 2003, in the State of California, there were over 69,000 ``Guard 
Card'' applicants. Of those applicants, almost 18,000 had an FBI 
``rap'' sheet indicating some sort of a prior criminal history. Thanks 
largely to a new law that went into effect in California in 2003, over 
9,000 or 51% of those applicants with a rap sheet were denied a guard 
card. Prior to the implementation of the law, security officers could 
have been employed on a temporary basis for three months or longer. 
Interestingly, the three most common reasons for denial were for sex 
related offenses, burglary/robbery and battery convictions. Data also 
showed that registered sex offenders frequently attempted to obtain a 
guard card.
    Although most states do not keep the type of statistics as provided 
by California, limited information from other States tell a similar 
story. In States such as Virginia and Florida, the rejection rate due 
to FBI records checks is estimated by the states to range from about 1% 
to 4% of all security officer applicants.
    In my home State of Illinois, a review of January, 2004 applicants 
showed that the FBI criminal history records check eliminated four 
times as many applicants as the Illinois State Police check for crimes 
committed within the State. Put another way, Illinois State Police 
clear 87% of all applicants while the FBI check clears only 64%--a 23% 
difference.
    Equally important is the turnover rate among security officers. The 
security industry records one of the highest ``drop out'' rates of 
employees. On average, companies suffer between a 20-70% turnover in 
security officers. However, some studies suggest a rate ranging between 
100-300%. A more conservative estimate is 50%. Thus, at that rate, 
there are 79,000 new private security officers being hired each month 
based on the current 1.9 million workforce--and only a relatively few 
of these applicants are undergoing an FBI criminal history background 
check because they are employed in states that have not authorized 
these checks.
    Another factor that we must contend with is applicant fraud and 
identity theft.
    I am sure it will come as no surprise to the members of the 
Subcommittee when I say that people are not always entirely truthful 
when they fill out a job application. In a word, they lie--who they 
are, where they live, where they worked, whether they have a criminal 
conviction history, whether they are living legally in the country and 
so on. Similarly, the incidence of identity theft has been made easier 
by computers. Crooks, today, are increasingly sophisticated and are 
able to manufacture fake documents such as licenses, social security 
and immigration cards that are near perfect matches to the real thing. 
Identity theft is rampant throughout the country and afflicts not just 
our industry but individuals and businesses everywhere.
    Consider this example. In Illinois, applicants for a security 
officer position can complete an application at one of our local 
offices. If they present some form of identification that appears 
legitimate, we forward the application to the State Police for a 
background check. A fingerprint check is automatically conducted in the 
State and subsequently sent to the FBI. As the statistics cited above 
demonstrate, the State Police clear a large percentage of applicants 
(87%). However, if that individual had committed a crime in neighboring 
states, such as Wisconsin, Iowa, Missouri or Indiana, the State Police 
check alone would not uncover those crimes. Nor would the check reveal 
whether the applicant had disclosed his/her true identity. Only a 
nationwide fingerprint search would ascertain the true identity and 
background of an applicant.
    These are but a few examples of the kinds of situations security 
companies are facing each day.
    Mr. Chairman, let me turn now to the specifics of the legislation 
under consideration today.
    S. 1743 can trace its origins to legislation (S. 1258) introduced 
in 1991 by then Senator Al Gore. His bill would have required the 
General Services Administration to promulgate rules establishing 
standards for the hiring of Federal and private security officers. The 
bill also mandated that security officers be subject to a criminal 
background check as a pre-condition of employment. Funds would have 
also been provided to States to develop a regulatory scheme that 
mirrored the GSA's standards. In a statement that accompanied the bill, 
Senator Gore said that, ``. . . People naturally believe that security 
officers are screened and trained with the same diligence as law 
enforcement officers. In fact, that is not always the case . . . the 
potential for damage by unfit security officers is obvious. The need 
for screening is critical.'' Unfortunately, the bill never gained much 
support and it died when Congress adjourned at the end of 1992.
    Subsequent efforts likewise failed. In 1993, Representatives 
Martinez and Owens introduced H.R. 1534. Two years later, in 1993, 
then-Representative Don Sundquist sponsored H.R. 2656. Neither of these 
bills received much attention. However, in 1996, Representatives Barr 
and Martinez teamed up and introduced H.R. 2092 the, ``Private Security 
Officer Quality Assurance Act,'' which would have provided for 
background checks of individuals seeking a license as a security 
officer. This bill passed the House on September 26, 1996 but the 
Senate did not act prior to adjournment that year. In 1997, 
Representative Barr sponsored H.R. 103, which passed the House on July 
28, 1997, but the Senate did not act on the bill. (See Attachment 3 for 
a legislative history of S. 1743.)
    Mr. Chairman, S. 1743 is the product of a bipartisan group of 
Senators who share the belief that Congress needs to act swiftly to 
prevent persons who commit serious crimes from being hired to protect 
their constituents, their families, their homes and places of 
employment. Sponsors of the original Senate bill (S.2238) included 
Senators Carl Levin, Fred Thompson, Joe Lieberman and Mitch McConnell. 
When the bill was first introduced in 2002, Senator Levin said that ``. 
. . this legislation will enhance the Nation's security. As an adjunct 
to our Nation's law enforcement officers, private security guards are 
responsible for the protection of numerous critical components of our 
Nation's infrastructure, including power generation facilities, 
hazardous materials manufacturing facilities, water supply and delivery 
facilities, oil and gas refineries and food processing plants--it is 
imperative that we provide access to information that might disclose 
who is unsuitable for protecting these resources.''
    Nothing has changed in the time that has elapsed since the bill's 
introduction in 2002. In fact, just the opposite is true. The threat of 
attack by America's enemies persists and grows. Personnel and resources 
are strained to the limit. The bombings in Spain have further caused 
authorities to enhance security measures for rail passengers. From whom 
and where the next target will emerge is uncertain. All of this 
contributes to our collective sense of vulnerability that our leaders 
seek to address on a daily basis. We share that responsibility and we 
take our mission seriously.
    Mr. Chairman, S. 1743 is a good bill. It is certainly not a 
panacea. It is merely an important and necessary tool that the security 
industry needs to keep the bad apples from being placed in positions of 
responsibility. Former Senator Warren Rudman, who co-chaired the U.S. 
Commission on National Security/21st Century, underscored the 
importance of this legislation in a letter to this Committee. In his 
December 2003 letter, Mr. Rudman stated, ``The legislation's enabling 
of a review of the criminal history records of prospective private 
security officers is exactly the sort of public-private cooperation 
that the Commission viewed as essential to promoting U.S. homeland 
security.'' He further stated that ``. . . S. 1743 deserves expedited 
treatment based on the critical gap that it fills in our nation's 
homeland security.''
    In its current form, we believe the bill strikes an important and 
appropriate balance between the interests of applicants, employers and 
the public.
    Essentially, the bill accomplishes three major objectives.
    First, the bill permits security companies to request a criminal 
background check on prospective employees. Requests must be forwarded 
through the States' identification bureau or a comparable agency 
designated by the Attorney General of the United States. Employers will 
not under any circumstances be given direct access to FBI records. The 
States will serve as the conduit for receiving an employer's request, 
passing it on to the FBI and, in turn, receive back from the FBI a 
report as to the suitability of the applicant for employment as a 
security officer. States may charge a reasonable fee for this service.
    Second, the bill protects an individual's privacy by requiring an 
applicant to provide written authorization to an employer to request a 
check before such a background check may be initiated. Further, the 
form and content of the information provided to an employer will be 
consistent with State laws and regulations governing the qualifications 
of individuals to be security officers. In those States where there are 
no standards, employers will only be notified as to whether an 
applicant has been convicted of a felony or a violent misdemeanor or a 
crime of dishonesty within the past 10 years.
    Finally, the bill does not impose any unfunded mandates on the 
States. Employers may be assessed a fee to handle these requests. In 
addition, States may opt out of this regime at any time.
    Mr. Chairman, insofar as I am aware, this bill faces no major 
opposition from any affected interest. It passed the Senate 
unanimously. The Administration as well as law enforcement officials 
agree with the scope and intent of the measure. In addition, I would 
like to include in the hearing record letters from the National 
Association of Security Companies (NASCO) and ASIS International. (See 
attachments 4 and 5.) Each of these organizations endorses enactment of 
this bill. I would add, parenthetically, that responsible members of 
NASCO and ASIS International have worked tirelessly over the years to 
improve the security profession. In addition, ASIS has recently 
published a draft Private Security Officer Selection and Training 
Guideline that, among other things, encourages States to enact 
licensing standards and to require FBI criminal history records checks 
as part of the licensing process.
    As noted above, in the four months that have elapsed since the 
Senate passed the bill, security firms have hired over 300,000 new 
guards. Only a certain percentage of these individuals have been 
thoroughly screened. More people are added to employment rolls each 
day. Most are fit for duty. However, some are not. This bill will plug 
that hole through which some unqualified candidates have slipped 
through in the past.
    In summary, Mr. Chairman, passage of S. 1743 will establish a much 
improved system and quality controls that will block the most serious 
offenders from gaining employment as security officers. The industry 
will benefit from this legislation and, more importantly, so will our 
nation. We urge its speedy adoption.
    Thank you again for the opportunity to testify on this critical 
legislation. I will be glad to respond to any question you, or other 
Members of the Subcommittee, may have.

                              ATTACHMENT 1

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ATTACHMENT 2

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ATTACHMENT 3

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ATTACHMENT 4

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ATTACHMENT 5

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Coble. Thank you, Mr. Walker.
    Mr. Maltby?

             STATEMENT OF LEWIS MALTBY, PRESIDENT, 
                 NATIONAL WORK RIGHTS INSTITUTE

    Mr. Maltby. Thank you, Mr. Chairman. Let me be clear from 
the outset that the two critical points the other witnesses 
have made are absolutely correct. Employers are entitled to 
relevant criminal information in making hiring decisions and 
secondly, it is too hard today for employers to get relevant 
criminal background information. I've been a private employer 
myself. I've run an HR department. I know from my own 
experience that it's too hard to get the information you need.
    So I agree with the other witnesses on those points and I 
think what the Committee and the bill are attempting to do is 
very important, but there's another national objective that's 
equally important that I don't believe is getting enough 
consideration in this context, and that is the absolutely 
imperative need to rehabilitate criminal offenders.
    Every year 600,000 people come out of jail in America. 
There are 13 million people in America today who have been in 
jail at some point in their lives and it's absolutely 
imperative that these people become productive citizens again, 
not just for their own sake but for our sake, because if they 
can't become rehabilitated they're going to become criminals 
again and that's going to hurt everyone just as much as putting 
a bad apple in a guard position.
    The most important part of being rehabilitated, and any 
professional in the field will tell you that, is getting a job. 
If you have to feed yourself and perhaps your kids, if you 
can't get a job you know what's going to happen--they're going 
to become criminals again.
    So what our law needs to do is to strike a very careful 
balance. On the one hand we have to make sure that bad apples 
don't get into the security guard business. That's imperative. 
But it's equally imperative that we don't stand in the way of 
good people who are not going the be a risk as a security 
guard, who are trying to rehabilitate themselves, by blocking 
them from employment. That hurts innocent people and the public 
just as much. We have to get the balance right.
    In one respect I believe 1743 does take an important step 
toward the balance and that is by restricting convictions to a 
10-year period. At least a 20-year conviction is not going to 
come back to haunt someone who's in their middle age and get in 
the way of them getting a job. It's not relevant and the bill 
wisely takes it out.
    But there are other balancing issues that need more 
attention. One of them is the definition of an offense that 
gets reported. Under the bill as written, any offense involving 
physical force or the attempt to use physical force comes under 
this bill. That means, to put it simply, if two people are 
sitting in a bar watching Monday Night Football and they get 
into an argument because they've both been drinking too much 
and somebody shoves the other guy or takes a swing at the other 
guy and misses, that's a criminal offense and it's covered by 
this bill and now this I'm sorry to say relatively trivial 
event is going to hang around for 10 years getting in the way 
of this person getting a job.
    I don't think that that's what people intended when they 
drafted this bill but that's what it says and I think it's 
clear that we're all concerned about serious offenses when we 
talk about qualifications to be a security guard, not a pushing 
match between two guys who got mad at each other after a 
fender-bender and we need to be a little more careful about 
refining the definition of what the offenses are that are 
covered by this bill.
    The definition of security officer I think needs some 
attention, too. Right now what the bill says is anyone who is 
responsible for the safety or another person or protecting 
another person's property is a security officer. That means the 
parking lot attendant where I parked my car to go to the train 
this morning is a security officer. If I'd had time to go to 
the Monocle today the person who took my coat in the coat room 
would have been a security officer.
    I don't think that's what we had in mind. I don't think 
whoever owns the Monocle needs Federal legislation to tell them 
how they should hire the coat check person. That's not what 
we're trying to do but it's what we do. I think that definition 
needs a little more attention, as well.
    And mostly what I'm trying to say is this. America's scared 
today for good reason. We've all seen 9/11. I lost friends and 
neighbors in 9/11. My post office in my home town was closed 
for a month because it was contaminated with anthrax. I'm 
scared, too. The question is how do we react when we're scared?
    A lot of employers are reacting understandably but wrong. 
Nineteen percent of all companies in America today will not 
hire anyone who's been convicted of anything at any time in 
their life. That includes giant companies like Eli Lily. Albert 
Einstein couldn't work for Eli Lily as a research chemist if he 
had been convicted of shoplifting as a teenager.
    The country needs guidance from Congress on how to respond 
to the situation with judgement and not by panicking in our 
fear and making overbroad rules. I would like to see 1743 
passed but we need to strike the balance a little more 
carefully. State legislatures have been working on this for 
years. They may not have solved the problem but there's a lot 
of good thinking that's going on at the State level about how 
to strike this balance and we should look to some of that and 
do some more thinking ourselves and make sure we get it right 
before we pass this law. Thank you.
    [The prepared statement of Mr. Maltby follows:]

                   Prepared Statement of Lewis Maltby

    The National Workrights Institute is a not-for-profit organization 
dedicated to expanding human rights in the workplace.
    The Institute supports the objectives of S. 1743. Private security 
officers frequently occupy positions of responsibility and it is in the 
public interest to ensure that individuals serving as security officers 
have the character and integrity to use this responsibility properly.
    There are many situations in which a prior criminal conviction 
makes it inappropriate for an individual to serve as a private security 
officer. This is especially true when the position requires carrying a 
firearm. No one wants to see a person who has been convicted of armed 
robbery serving as a bank security guard and carrying a gun.
    S. 1743, by making it easier for employers to obtain information 
that will help them to hire only qualified people as security officers, 
is a positive development.
    In determining who is qualified to serve as a security guard, it is 
also important to consider other national priorities. One of these is 
encouraging the rehabilitation of individuals who have committed 
criminal offenses. Every year, 600,000 people are released from prison 
in America. It is vitally important to these individuals, their 
families, their communities, and our entire society that they 
rehabilitate themselves and become law abiding responsible citizens. A 
critical part of rehabilitation is employment. It is virtually 
impossible for a person to rehabilitate themselves if they cannot get a 
job. In making rules for the employment of people with criminal 
records, we must take care not to unnecessarily deny employment to ex-
offenders. A criminal conviction must not become a scarlet letter than 
follows a person for life.
    It is vitally important that we strike this balance correctly. If 
we allow the wrong people to become security officers, these officers 
will commit or tolerate crime and innocent people will suffer. If we 
deny employment to people who have rehabilitated themselves we push 
them back into a life of crime and innocent people will suffer. We 
cannot play it safe by making the qualifications for serving as a 
security officer so high that most people can't qualify. We have to do 
the hard, unglamorous, work of getting into the details and getting the 
balance right.
    S. 1743 contains constructive provisions to strike this balance. 
For example, section 4(a)(4)(B) (i)(I) provides that only convictions 
within the last 10 years are to be reported. This protects people from 
being denied employment because of old convictions that indicate little 
or nothing about a person's current character.
    Additional steps are required to strike the right balance. For 
example, as drafted, S. 1743 covers all offenses involving 
``dishonesty'' or ``physical force''. This covers virtually the entire 
criminal code. Moreover, there is no minimum. Any conviction involving 
force is covered. It need not be a felony. It need not even be a 
misdemeanor. A person who got into a shoving match following a traffic 
accident and was fined $25 by a magistrate would be covered by S. 1743.
    This needs to be modified. While a person who has used unlawful 
force on another will often be unqualified to be a security officer, 
not everyone who has used force should be disqualified. Some minimum 
level of offense or harm should be required.
    The breadth of the definition of ``security officer'' also raises 
concerns. It applies to anyone whose job is to ``protect people or 
property''. This sweeping definition includes school crossing guards, 
parking lot attendants, receptionists, and coatroom attendants. Do we 
really need an act of Congress to make sure the owner of the Monocle 
hires the right coatroom attendant?
    Technically, of course, the bill doesn't set qualification 
standards for security officers. It only makes it easier for employers 
to get certain kinds of criminal history. But a Congressional statement 
that certain information must be made available to employers who hire 
security officers will quickly turn this information into de facto 
qualification standards.
    America is afraid of crime. We are especially afraid of terrorism, 
and with good reason. I lost friends and neighbors on 9/11. My post 
office was closed for several weeks because it was contaminated with 
anthrax. I'm scared too.
    Employers are afraid. Employers have increased their use of 
criminal records so fast that the record providers can barely keep up 
with the demand. Some of this development is healthy. But employers' 
fear is starting to get the best of their good judgment. A large and 
growing number of employers now refuse to hire anyone with a criminal 
record--no matter how minor the offense, how long ago it occurred, and 
no matter how the person has behaved since the offense. Eli Lilly, one 
of the world's largest pharmaceutical companies, is one such employer. 
You could have won the Nobel prize in chemistry, but you can't work at 
Eli Lilly if you were caught shoplifting as a teenager.
    Eli Lilly is not alone in its misguided policy. The Congressional 
Office of Technology Assessment found that, even before 9/11, 19% of 
employers refused to hire anyone with a criminal record, even though 
such policies are in violation of Title VII.
    If this trend continues, the economic implications for America are 
frightening. Approximately 43 million Americans have criminal records. 
Over 13 million Americans have been in jail at some point in their 
lives. If this many people become unable to work, our gross domestic 
product will suffer the greatest drop in our lifetimes and our welfare 
system will go bankrupt.
    Congress needs to provide leadership to employers on the use of 
criminal records. It needs to show by its own actions that criminal 
records should be used in the employment process, but used carefully. 
We need to create guidelines that prevent violent and dishonest people 
from becoming security officers without casting the net so wide that we 
undermine the criminal justice systems' efforts to rehabilitate former 
offenders or damage our economy.
    We can meet this challenge. The Institute would welcome the 
opportunity to help.

    Mr. Coble. Thank you, Mr. Maltby. We appreciate all of you 
being with us.
    We were joined by the distinguished gentleman from 
Massachusetts, Mr. Meehan, but I think he has since departed.
    I recognize myself for 5 minutes.
    Mr. Walker, in your statement you indicate that the States 
will serve as a conduit for receiving an employer's request, 
passing it on to the FBI. Is it the State or the FBI that 
determines the applicant's suitability for employment as a 
security officer?
    Mr. Walker. It would be the State that would make the 
determination.
    Mr. Coble. Ms. Pirro, you indicate on your website, the 
Westchester County District Attorneys' website to be specific, 
that ``While our job is to prosecute crimes, our goal is crime 
prevention.'' Tell us in some detail what role do background 
checks play in effective crime prevention?
    Ms. Pirro. Very simply, Mr. Chairman, if we know that 
someone is a pedophile or has a prior criminal history for the 
sexual abuse of children, then we will prevent that individual 
from having access to children because a pedophile will 
insinuate himself in any employment where he has access to 
another child. If we can identify who these people are, 
recognize the high recidivism rate, then in essence we are 
protecting our children.
    Mr. Chairman, there's one thing that I think is very 
important to note here and that is that criminal histories are 
public information. Anyone in this room can go into their 
county courthouse and access a person's criminal record, so 
this is not information that we're not entitled to.
    The issue is whether or not we're going to require 
employers to go to every courthouse in every State in this 
country to find out who's applying for a job. In this age of 
technology we should be able to do that in one step.
    Mr. Coble. Thank you.
    Mr. Kirkpatrick, your resources have no doubt been 
significantly stretched since 9/11. Have your financial and 
personnel resources expanded commensurately?
    Mr. Kirkpatrick. Mr. Chairman, no, they haven't. To date we 
have been able to keep up with this significantly expanded 
demand for our services with efficiency gains brought about 
through automation. Additionally, as it was noted in my written 
statement, we have the ability to charge for these checks and 
that user fee revenue that these checks generate have been used 
to keep up with the demand for these services.
    Mr. Coble. Mr. Maltby, elaborate for me if you will on any 
civil liability issues that might arise if employers were not 
to conduct background checks.
    Mr. Maltby. Mr. Chairman, there are probably situations--I 
think some of the litigation has occurred already--where an 
employer in a very sensitive position, perhaps running a day 
care center, had the opportunity to conduct a criminal record 
check and failed to do so and that's probably appropriate. If 
you're running a critical situation like a day care center or 
running a trucking company, there are certain criminal 
convictions you ought to be concerned about that ought to be 
disqualifying events.
    Mr. Coble. Now in your hypothetical when you used the 
Monocle, what if the owner of the Monocle wanted to do a 
background check on his employees, his coat check worker, for 
example? Should he be able to access criminal history records?
    Mr. Maltby. The owner of the Monocle or any other employer 
ought to be able to access and easily access relevant criminal 
history but not irrelevant criminal history and the challenge 
facing all of us is to define what is relevant and what's not 
relevant. There's no point--the public is not served by 
streamlining the ability of employers to get irrelevant 
information.
    Mr. Coble. Mr. Walker, you indicated that the security 
officer industry records one of the highest dropout rates of 
employees, and I think you furthermore said that a conservative 
figure would be 50 percent turnover, which is drastic. What is 
the industry doing or what can you do to promote employee 
retention?
    Mr. Walker. Thank you, Mr. Chairman. Yes, 50 percent is 
very high but that's a conservative estimate. Some of the 
estimates range anywhere from 100 percent to 300 percent.
    Various companies--there are a lot of companies that are 
members of NASCO, the National Association of Security 
Companies, who have been working on this problem for years and 
the responsible organizations have worked to increase wages, 
which is one of the issues that we talk about in trying to 
attract better people, to increase wages, and I can tell you 
what we do in our own company. We have what we call a living 
wage program that we've implemented in 1999 and we have a 
rigorous screening program to use the resources that we have 
available.
    We try to sell our wages and benefits to our clients at 
above market rates. We provide training programs and other 
opportunities for employees to improve themselves and we also 
try to promote from within so that we have a number of security 
officers that started as security officers that are promoted 
through the ranks of the organization up into top management.
    Mr. Coble. Thank you.
    My time has expired. We have been joined by the 
distinguished lady from Texas, Ms. Sheila Jackson Lee. Good to 
have you with us, Ms. Jackson Lee.
    The Chairman recognizes the Ranking Member, the gentleman 
from Virginia.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Kirkpatrick, what information gets into the database 
that's checked?
    Mr. Kirkpatrick. The information that we maintain is 
fingerprint-based arrests and then the related dispositions of 
those arrests, whether it be a conviction, a dismissal or an 
acquittal.
    Additionally, as I mentioned, we also conduct name-based 
checks of the wanted persons file to see if that individual's a 
fugitive, as well as the terrorist file to see if that person 
is a known or suspected terrorist.
    Mr. Scott. And what information is released if someone does 
a check, send you fingerprints for a check? What information do 
they get back?
    Mr. Kirkpatrick. The information that we send back is what 
we would call a criminal history. It's probably more commonly 
known as a rap sheet on that individual that would show the 
arrests and the related dispositions of those arrests.
    Mr. Scott. So if a person had been acquitted, you would 
show that they had been arrested.
    Mr. Walker. That's correct, yes.
    Mr. Scott. Ms. Pirro, is this the information that the 
parents would get if they did one of those checks?
    Ms. Pirro. The acquittal information?
    Mr. Scott. Right.
    Ms. Pirro. Probably not. They would get the conviction 
information. The acquittal would most probably be sealed. There 
would be a sealing order on that under the New York State 
criminal history check.
    Mr. Scott. Well, Mr. Kirkpatrick, do parents do background 
checks that you're aware of?
    Mr. Kirkpatrick. I'm not aware of any situation that we 
deal with where an individual parent has the ability to request 
a national background check, no, sir.
    Mr. Scott. Ms. Pirro, if a parent does one of these 
background checks what database do they access?
    Ms. Pirro. It goes to New York State under Kieren's Law in 
New York State, which is a law that passed as a result of the 
woman with the prior criminal history throwing the 10-month-old 
against the wall. It gives employers of individuals who work in 
their home to care for their children the ability to ask an 
employee whether or not they can get permission, whether 
they'll give them permission. In that circumstance they can get 
a prior criminal conviction from NISIS.
    Mr. Scott. And the prospective employer would ask who? The 
FBI?
    Ms. Pirro. No. In New York under Kieren's Law--you see, 
this is exactly the problem. Every State has kind of a 
hodgepodge of who can ask for what and from whom. That's why we 
need a central database and a registry that gives everyone the 
ability to access the same information because that parent in 
New York who is doing a background check on the person coming 
to work in their home to care for their children will not get 
information about a prior conviction in Connecticut, which can 
be three miles away from Westchester because it's a different 
State. They can only access the New York State database.
    Mr. Scott. So if they've got Federal convictions it 
wouldn't show up.
    Ms. Pirro. No.
    Mr. Scott. Hmm.
    Well, Mr. Kirkpatrick, you give everything so there's no 
screening of what comes out.
    Mr. Kirkpatrick. That's correct. We send back the 
information we have on file to a recognized agency within the 
State or to a recognized agency that's listed in the 
legislation that authorizes the background check and that 
agency then makes a fitness determination on that prospective 
person.
    Mr. Scott. Based on what they get.
    Mr. Kirkpatrick. That's correct.
    Mr. Scott. Okay, Mr. Walker, when you do a background check 
who do you call?
    Mr. Walker. Currently we would go to the county of 
residence or county of employment where the applicant has 
worked or lived for the last 7 years and we would do a court-
house-by-courthouse record check.
    Mr. Scott. So if they were convicted in the adjoining 
jurisdiction, you wouldn't see that?
    Mr. Walker. We'd have no way of knowing it unless it was 
reported in that particular courthouse. There have been 
instances where people have lived in areas that they did not 
disclose and we had no way to know that and unfortunately it's 
not a good situation. That's what we're trying to correct.
    Mr. Scott. And if the bill passes what would you get?
    Mr. Walker. If the bill passes then the State agency that 
requested the information would get the rap sheet and make a 
determination as to whether or not the individual was suitable 
for employment.
    Mr. Scott. You said the State agency would get----
    Mr. Walker. Yes. Like, for example, in Illinois it might be 
the Illinois State Police and they would tell the licensing 
bureau whether or not that person had a significant criminal 
history and the licensing bureau would tell us that the person 
is either eligible or not eligible for hire.
    Mr. Scott. But you wouldn't get the rap sheet?
    Mr. Walker. No, we don't want the rap sheet.
    Mr. Scott. Thank you.
    Mr. Coble. Ms. Pirro, let me revisit Mr. Scott's question. 
Mr. Scott is a prospective employer of mine. I apply for a job. 
I have been prosecuted and convicted. Now he would get that 
information.
    Ms. Pirro. Well, depending on----
    Mr. Coble. Let me give you a two-part question. I'm 
prosecuted and acquitted. Now as I understood from your 
response to his question, he would be beneficiary or someone 
would be beneficiary of the conviction, but the acquittal would 
not surface.
    Ms. Pirro. That would not surface. The arrest that results 
in an acquittal would not surface. The information----
    Mr. Coble. In New York.
    Ms. Pirro. In New York. Only in New York. And every State 
has a different approach to it.
    Mr. Coble. That seems sort of anomalous is why I wanted to 
bring it up. You'd think that would be equally important, the 
acquittal as opposed to a conviction. Just curious.
    Mr. Goodlatte, the gentleman from Virginia.
    Mr. Goodlatte. Mr. Chairman, thank you. I don't have any 
questions.
    Mr. Coble. The gentlelady from Texas, Ms. Sheila Jackson 
Lee, is recognized for 5 minutes.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman and 
Ranking Member.
    I may ask questions that may have been covered in your 
testimony and I ask your indulgence, since I was held in 
another meeting and not able to hear the complete testimony, 
but I have a line of questioning that I would like to pursue.
    First of all to Mr. Maltby, maybe you indicated this; maybe 
there are no problems and I think you're representing the 
workers association, if I understand it correctly?
    Mr. Maltby. Close enough, ma'am.
    Ms. Jackson Lee. That's a description, not the title. 
You're involved with those who are employed and working; is 
that my understanding or representing----
    Mr. Maltby. Our mission is to protect the human rights of 
people in the workplace, yes.
    Ms. Jackson Lee. All, right, that's what I thought it was. 
Why don't you give me your concerns about either this 
legislation or the idea of being able to secure this 
information.
    Mr. Maltby. Ma'am, I have no concern about employers being 
able to get relevant information and I think it's worth stating 
again, and thanks for giving me the opportunity to say so--it 
is too hard for employers to get that information today. It 
needs to be streamlined.
    The question is what information do we give employers? And 
what I've been trying to stress is that we don't want to give 
employers irrelevant information that could cause someone to 
lose a job for which they should not be disqualified.
    And I raise that particularly from the standpoint of our 
nation's commitment to rehabilitate former offenders. Everyone 
in America agrees that it's the right thing to do. Everyone 
agrees it's important. President Bush has joined hands with 
some people he doesn't usually join hands with to stress the 
need for former offenders to become rehabilitated so they won't 
commit another crime. And if you can't get a job you're not 
going to be successfully rehabilitated. And it's vitally 
important that if someone is trying to become rehabilitated 
that they not be denied a job as a security officer or anything 
else for a trivial offense that really isn't relevant.
    And what I'm urging the Committee to do is to reexamine the 
nature and the breadth of the offenses that this will considers 
to be relevant because I believe it to be somewhat overbroad.
    Ms. Jackson Lee. Doesn't the aspect, as I recall, of the 
informing of the employee and getting their permission to 
secure the information and then allowing them to see it, how do 
you respond to that?
    Mr. Maltby. Well, ma'am, consent may be very important in 
the eyes of the law but as a practical matter it really doesn't 
amount to much because when you need a job and the employer 
says please consent to this form or we're going to take your 
employment application and throw it in the waste basket, what 
choice does the person have but to sign it?
    It's really misleading to call it consent. Signing the form 
is a condition of employment and we can't get around the 
problem of deciding what's relevant information and what isn't 
by relying on employee consent.
    Ms. Jackson Lee. Is the information from your understanding 
to be pulled up would include criminal offenses and civil acts, 
such as bad credit?
    Mr. Maltby. No, ma'am. I think the bill, to its credit, is 
very clear that it only involves criminal convictions, not 
civil problems, not arrests without a conviction, except if 
they're within the last year. But virtually every criminal 
conviction is covered. If two gentlemen get into a fender-
bender on the beltway and somebody shoves the other guy and a 
police officer comes and someone becomes convicted for simple 
assault or disorderly conduct, that is covered by this bill and 
I'm concerned that someone who's an ex-offender, who's trying 
to become a good citizen again, is going to be denied a job 
opportunity because of a little shoving accident after a 
traffic accident and that's not what we're trying to accomplish 
here.
    Ms. Jackson Lee. Well, I hope you won't be swayed by being 
in this great and august room, Members of the Judiciary 
Committee, that we are not concerned about rehabilitation. I 
happen to be very concerned about that. In fact, I have a good 
time legislative initiative to address nonviolent offenders.
    But what I would ask from you and I'm going to ask Mr. 
Walker a question to follow up, what kind of fire wall would 
you suggest that would be included in legislation like this to 
take into account circumstances that you have mentioned, which 
are altercations at best? You would not think that they would 
be threatening to homeland security or threatening to anyone's 
life and limb but they have had some past record. Do you have a 
suggestion of any kind of language or process that could be 
utilized?
    Mr. Maltby. Ma'am, if I were smart enough to come in here 
and tell you I know the precise definition for how to strike 
the balance between serious offenses and the ones that we 
shouldn't be concerned about, I'd be a much smarter person than 
I am.
    But I do believe that that definition can be worked out. I 
don't think it's impossible and I would very much appreciate 
the opportunity to work with the Committee and the other 
concerned parties to try to find the right language that 
includes the serious offenses but doesn't suck people into the 
system and cost them job opportunities because of minor 
offenses.
    Ms. Jackson Lee. Mr. Walker, you represent the private 
security industry?
    Mr. Walker. That's correct.
    Ms. Jackson Lee. What is your thought about that in terms 
of having at least some respect for people who have minimal 
offenses in the past and working in your industry, using this 
legislation?
    Mr. Walker. Certainly we have a tremendous amount of 
respect for individuals and the individuals' rights and we work 
hard to protect that, but there are three points I'd like to 
make here.
    One is arrest records and conviction records currently are 
public records and everything--if you check a local courthouse 
for a criminal record you get every piece of information they 
have in that particular courthouse.
    Second of all, under the Fair Credit Reporting Act, if you 
use an outside agency to do an investigation for you you have 
to get the employee's consent to do that investigation.
    And thirdly, even what may appear to be a minor incident, 
if it shows the individual has a hot temper and gets into 
altercations, that person may not be fit for duty to be a 
security officer.
    Under this current legislation that we're looking at today, 
the protections are actually built in to a greater degree than 
they currently exist because we would get--as an employer, we 
would get nationwide criminal history information but only 
having that information go to a State agency, a law enforcement 
agency, an agency of the State government, which would tell us 
would could either license that person within the State or not. 
So I think the legislation actually builds in some protections 
that we don't currently have.
    Ms. Jackson Lee. I thank the Chairman. Thank you.
    Mr. Coble. Thank you, Ms. Jackson Lee.
    Mr. Feeney says he has no questions.
    Mr. Keller?
    Mr. Keller. No questions, Mr. Chairman.
    Mr. Coble. I know Mr. Scott has another question or two. 
Let me put one question to you, Mr. Kirkpatrick, and then I'll 
yield to Mr. Scott.
    It is my belief, Mr. Kirkpatrick, that fingerprints are 
currently probably the most reliable means of positively 
identifying an individual. Look into your crystal ball into the 
future and describe what is on the horizon with new technology 
and biometrics.
    Well first of all, am I correct in my assumption about 
fingerprints?
    Mr. Kirkpatrick. Mr. Chairman, I believe that you are. 
Fingerprints have a more than 100-year history of positively 
identifying individuals. They have been proven to work to 
positively identify a single individual against an extremely 
large database of the magnitude that we're talking about, tens 
of millions of individuals.
    This is a very good question and it's something that we 
deal with daily looking into the future on biometrics. We meet 
regularly with law enforcement leaders from not just this 
country but internationally. We meet with leaders of the 
biometrics industry and I would say that in the short and mid-
term, which would be up to about 5 years out, certainly 
fingerprints are going to remain the gold standard for positive 
identification of individuals.
    Looking beyond that time frame, I think that there's other 
technologies that are emerging, such as iris scans, facial 
recognition, things like that, that in that period of time will 
be improved upon and tested against very large populations.
    One of the problems with things like facial recognition and 
iris scans is that criminals do not leave their faces nor their 
irises behind at crime scenes. They do leave their fingerprints 
behind and we can take those latent crime scene fingerprints 
and match them up against our criminal database and find out 
who committed crimes as an ancillary benefit.
    So I think mid-term, fingerprints are it. Looking beyond 
that there's the possibility that other biometrics will emerge.
    Mr. Coble. Thank you, sir.
    The chair recognizes the gentleman from Virginia.
    Mr. Scott. Thank you.
    Mr. Kirkpatrick, let me go back. Did I understand you to 
say that the FBI includes local convictions in FBI files?
    Mr. Kirkpatrick. That's correct. The FBI fingerprint 
repository is a national repository and it works in such a way 
that State and local and Federal law enforcement all report 
their arrests to us so that it is, in fact, a national 
repository.
    Mr. Scott. And Mr. Maltby, as I understand the bill, if a 
request is made in a State that has a State agency and 
guidelines and qualifications for security officers, then the 
agency--you apply to the agency and they get the information, 
compare the background check to their qualifications and just 
say whether the person is qualified under State guidelines or 
not. If there is no such State agency then you get felonies, 
convictions involving dishonesty or violence within 10 years or 
an unresolved arrest within the year.
    Mr. Maltby. I believe that's correct, sir.
    Mr. Scott. What's wrong with that?
    Mr. Maltby. What's wrong with that is that first, the 
definitions in this bill cover virtually the entire crimes 
code. I used to be a criminal defense attorney in my youth and 
almost every crime on the books involves force or theft or 
dishonesty. And to put it very concretely, I don't think that 
someone who tried to buy beer with a false ID at 18 ought to 
have that become an impediment to getting a job when they're 
27. I just don't think that it's relevant, but this bill would 
provide it to employers and people who are ex-offenders who 
need to be rehabilitated, who we need to be rehabilitated, are 
not going to get a job because of this irrelevant information 
and they're going to be back on the streets committing another 
crime, which is the last thing anybody wants.
    What I'm trying to say is that there are many situations 
where if you're trying to protect the public safety you just go 
a little too far. You throw the net real broad and what harm 
could it do but----
    Mr. Scott. On the question where you have a State agency, 
you don't have a problem with that part of it?
    Mr. Maltby. Well, if the State has a real good definition 
of what's relevant and what's not relevant, then there would 
not be a problem, but most States don't really have a good 
definition and if the Federal Government is going to get into 
this field and try to fix the problem, it really needs to 
address the issue of what's relevant to employment to be a 
security officer and what isn't. That's the heart of the 
question.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Coble. I thank the gentleman.
    Mr. Green, did you have questions, Mr. Green?
    Mr. Green. No questions.
    Mr. Coble. The gentlelady from Texas, Ms. Sheila Jackson 
Lee.
    Ms. Jackson Lee. Let me pursue a line of questioning that I 
was moving on with Mr. Walker and then Ms. Pirro.
    You mentioned under New York law that you would surmise 
that acquittals would not be included in information either 
transmitted or utilized, so therefore if someone went through 
the judicial system and was acquitted it would not be included?
    Ms. Pirro. The arrest would not be included. As well, if it 
resulted in an acquittal that becomes a sealed record. So it's 
not as though there would be an arrest out there with no 
disposition where we just seal the acquittal.
    So that would not be----
    Ms. Jackson Lee. Arrest and possibly acquittal.
    Ms. Pirro. Right, right. But I think what's important here 
is that we keep hearing an example of someone who throws a 
punch and misses. In virtually every State that is not a crime. 
That is a violation if there isn't any injury. And in New York 
State specifically there would be no rap sheet or criminal 
history that would reflect anything less than a crime. So that 
a violation, a pushing or a shoving, would not be on the rap 
sheet to begin with.
    Ms. Jackson Lee. Give us an example of what you might 
expect that this bill would be able to cull from States around 
the nation.
    Ms. Pirro. I'm not really in a position to do that in terms 
of the security industry. I guess my position is a more generic 
one, and that is this is public information that everyone is 
entitled--that employers should be entitled to know because 
we're assuming that the person applying for the job under the 
scenarios that we keep hearing are people who are in good faith 
in trying to rehabilitate themselves.
    There are people who are not acting in good faith and when 
there is a history and a record and a conviction beyond a 
reasonable doubt, that should be able not just to people in the 
security business but to employers who are hiring individuals 
who have access to our children or who work in power plants or 
hospitals or at oil refineries or at any one of a number of 
manufacturing companies.
    Ms. Jackson Lee. In your personal history as a district 
attorney, do you note in a particular segment, in this instance 
private security officers, any unique criminal problems or more 
unique criminal activity of these private security agents 
before this kind of system would be put in place? Has there 
been difficulty in hiring private security officers and finding 
that they have criminal backgrounds?
    Ms. Pirro. It is difficult to identify those individuals 
who have a criminal history from another State in New York. 
That is the problem and just recently in Westchester there were 
several security guards that my office indicted for sexual 
assault of students who had criminal histories in other States 
that we had no way of knowing and that the schools had no way 
of knowing.
    Ms. Jackson Lee. Mr. Kirkpatrick, is this legislation 
helpful to your system? Or your system in terms of 
participating in this, is this a comfortable fit between 
legislation like this and what you do?
    Mr. Kirkpatrick. Well, it is. We service a number of 
different private sector industries and occupations in terms of 
licensing and employment checks and our stance on this has 
always been that if there is an appropriate law passed for a 
particular industry or occupation, we'll do the checks and we 
will send the results of those checks back to the authorized 
agency to review those records and make a determination as to 
whether or not that particular individual meets the 
qualifications for that employment situation in that particular 
locality.
    Ms. Jackson Lee. And in this instance the State entity 
would be fine with you?
    Mr. Kirkpatrick. That fits in with our model as we 
currently do business, yes, ma'am.
    Ms. Jackson Lee. Mr. Walker, we know that across the board 
the private security industry has had its ups and its downs. It 
has been a place of refuge for individuals who have done 
themselves well by being hired, as I understand, but maybe in 
the past have had some interaction with the law.
    I know to be a certified peace officer, to carry a weapon, 
it may be that you're prohibited having a criminal record but I 
know that officers who do not have or individuals that are 
private security guards who do not carry weapons in certain 
States have had records in the past.
    In your industry have you noted that individuals with those 
kinds of pasts--and I'm not suggesting a violent criminal 
record but some interaction--have been able to be successful 
officers?
    Mr. Walker. I'm not aware of a situation where we in our 
own company have employed individuals that had a criminal 
history that became successful officers. In fact----
    Ms. Jackson Lee. And are yours certified peace officers? Do 
they carry weapons or----
    Mr. Walker. We have some armed security officers, yes, only 
1 percent of our workforce.
    Ms. Jackson Lee. And the rest are unarmed.
    Mr. Walker. Yes. And in those cases, in the States where 
there is legislation, they would not get a license or if they 
did get a temporary license their license would be revoked and 
we would have to terminate their employment. But we do a 
background investigation prior to hiring the individual and we 
make those local county record checks and we certainly would 
not employ anyone who had a serious criminal history.
    Ms. Jackson Lee. And do you know of companies within your 
industry that have done so? And you said serious and I was not 
saying serious. I said some form of altercation, maybe a 
juvenile record.
    Mr. Walker. Juvenile records are generally sealed and not 
available to us.
    Ms. Jackson Lee. So you don't get that.
    Mr. Walker. We do not get that, anyway. And minor 
misdemeanors are not something that would be a knock-out 
factor, if you will. In fact----
    Ms. Jackson Lee. That's what I'm trying to get at.
    Mr. Walker. Right. A statistic from Illinois, I think, we 
very interesting to me. The Illinois State Police, in doing 
their test in January, had a hit rate where they hit on a rap 
sheet within the State of like 8 percent and when they went to 
the FBI the hit rate increased. So the FBI reported back 214, I 
believe it was, arrests and convictions. The State then did a 
manual review, an override, and 132 of those conviction records 
were thrown out as not being relevant to the licensing of a 
security guard.
    So there are safeguards in effect at the State level that 
would prohibit discrimination against individuals who should be 
given an opportunity to become rehabilitated and work in the 
workplace.
    Ms. Jackson Lee. Thank you.
    Mr. Coble. I thank the lady.
    Prior to adjournment I want to remind our Members that we 
have a mark-up that will be conducted to commence shortly after 
we adjourn. We'd appreciate your remaining for that.
    We thank the witnesses for your testimony today. The 
Subcommittee appreciates your contribution.
    This concludes the legislative hearing on S. 1743, the 
``Private Security Officer Employment Authorization Act of 
2003.'' Thank you for your cooperation. The Subcommittee stands 
adjourned.
    [Whereupon, at 2:38 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
           Representative in Congress From the State of Texas

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Questions and Responses for the Record from Michael Kirkpatrick

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Questions and Responses for the Record from the Honorable Jeanine Pirro

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

         Questions and Responses for the Record from Don Walker

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                  Prepared Statement of Ira A. Lipman

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

             Prepared Statement of William C. Whitmore, Jr.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Prepared Statement of Cecil Hogan

    Mr. Chairman, and Members of the Subcommittee. The National Burglar 
& Fire Alarm Association (NBFAA) appreciates the opportunity to 
participate in discussions on issues relating to private security 
employment authorization. NBFAA is a national trade association that 
represents more than 2,400 companies throughout the fifty states and 
four U.S. territories. Our members are engaged in the manufacture, 
sale, installation, service and/or monitoring of electronic life safety 
& security systems. Since 1948, NBFAA has been dedicated to raising the 
level of professionalism within the industry to the benefit of the 
consumers, public safety organizations and the electronic systems 
profession.
    While NBFAA is encouraged by this legislation and the timely 
efforts of you and your colleagues, we believe this bill would be more 
effective and more strongly supported if its scope were increased. One 
of the main functions of NBFAA is to encourage the implementation of 
laws at both the state and federal levels with the primary purpose to 
promote professionalism of security systems companies, to maintain the 
operational reliability and proper use of physical and electronic 
security systems and to ensure a minimum level of training.
    According to STAT Resources, Inc., Americans spent an estimated 
$18.7 billion on professionally installed electronic security products 
and services in 2001 (this figure includes monthly monitoring fees). 
This number was up from $17.5 billion in 2000 and $16.2 billion in 
1999. While all agree that this number has significantly increased over 
the past three years, with the tragic events of September 11th, 
estimates on the amount of this increase are staggering.
    In 2001 alone, an average of approximately 10,000 businesses 
nationwide were classified as ``alarm installing entities'' and 
spending on electronic security products and services is growing at an 
estimated 8.6 percent per year. Further, in the United States, crimes 
against commercial establishments have reached epidemic proportions. 
Each year, business losses due to crime exceed $100 billion.
    While NBFAA and others have had success at establishing licensing 
of the electronic life safety and security industry at the state level, 
a good deal of work remains. Although 37 states have some sort of state 
license requirements for our industry, only 20 of those require 
background checks as part of that license. Just as this legislation 
illustrates the vital nature of the private security officers work in 
the new era of homeland security, so to is the vital work of the 
individuals and companies that provide the infrastructure for that 
work. However, at this time, many of our members do not have the 
ability to effectively screen their applicants and better ensure the 
safety of their clients. NBFAA believes strongly that this must change.
    States that do not offer the ability to conduct a background check 
through state licensing for the electronic life safety, security and 
systems industry include Pennsylvania, Ohio, Nevada, Wisconsin and many 
more. Our members in these states install security and life safety 
systems to commercial properties (i.e. shopping malls, movie theaters, 
office buildings) as well as residential properties including apartment 
buildings. NBFAA members provide services to critical infrastructure 
across the country as well as schools and other institutional entities. 
We install security systems, fire systems, CCTV, access control, and 
much more.
    Simply analyzing the potential dangers surrounding unqualified 
private security employee installing an access control system in one of 
these critical infrastructures alone is enough to understand our push 
for inclusion into this legislation. While ensuring the qualifications 
of the private security officer is essential, ensuring that the 
infrastructure under which he operates has been installed by qualified 
professionals is imperative.
    In this new era of homeland security, the need for a partnership 
between the public and private security is important. Providing the 
resources and structure for this partnership is a role the federal 
government must play. While this legislation addresses the American 
public's need for the employment of qualified, well-trained private 
security personnel, it does not address that same need for the 
installers of the systems that protect their homes, their offices, 
their lives.
    NBFAA appreciates the opportunity to submit this statement for the 
record.

                               __________
  Prepared Statement of the National Association of Security Companies

    Mr. Chairman and Members of the Subcommittee,
    The National Association of Security Companies (NASCO), a trade 
association, represents the major national and regional providers of 
contract security services in the United States. Our members 
collectively employ more than 400,000 private security officers 
nationwide.
    NASCO companies' private security officers protect sites of all 
descriptions throughout America: shopping malls, office buildings, 
corporate campuses, hospitals, educational institutions, both 
conventional and nuclear power plants, utilities, financial 
institutions, water treatment and pumping stations, defense 
manufacturing facilities, chemical plants, communications centers, 
docks, warehouses, oil and gas production and transmission facilities, 
transportation hubs, government facilities, food manufacturing and 
processing plants, and bioresearch centers are among our members' 
clients.
    Regardless of where disaster next strikes, whether as an act of 
terrorism, a weather-related emergency, or as an accident, it is a 
near-certainty that private security officers will be nearby. In many 
instances, private security officers are truly first responders, 
already on the premises and familiar with the property, its layout and 
structures, persons on the premises, and other significant details 
important to both protecting lives and assisting law enforcement.
    Protecting lives and other valuable assets at such a vast number of 
sites across the nation places a high level of responsibility and a 
fundamental role in Homeland Security on our private security officers. 
NASCO's members want to hire well qualified candidates into these 
positions. To do so, they routinely conduct their own internal 
background investigations on job applicants. Maximizing the 
effectiveness of that process, however, requires either state or 
federal statutory authorization for our applicants to undergo a 
fingerprint-based check against the database maintained by the Federal 
Bureau of Investigation. That database offers the best assurance that 
an applicant in one state does not have a prior record of felony 
convictions in a state other than the one in which application is being 
made. S. 1743 would provide us that access, and we urge you to adopt it 
as an important step toward enhancing the security of our homeland.
    At present, the private security industry is regulated in 40 
states. The specific requirements for private security officers in 
those 40 states vary significantly, even as to the extent of background 
investigation required for employment. Only 31 states call for FBI 
criminal history records checks, and at least 7 of those limit the FBI 
checks to applicants for armed security positions (who constitute a 
distinct minority of all private security positions). Also among those 
31 state laws are other state regulatory statutes that appear to permit 
the FBI checks, but do not require them, leaving yet another gap for an 
out-of-state convicted felon or an identity thief to gain security 
employment at a sensitive site. These gaps open the door for the very 
types of criminal conduct that our employees are typically assigned to 
prevent. Good security requires that they be closed.
    As a federal bill, the impact of S. 1743 will be in the 10 states 
that lack private security regulation, the 9 regulated states that do 
not call for criminal records checks through the FBI, and the 7 states 
which routinely conduct FBI checks only for armed security applicants. 
It will also affect security applications in states which allow, but do 
not mandate, FBI checks. If S. 1743 is adopted, the decision to submit 
fingerprints for an FBI check could be made not only by the regulatory 
authority, but also at the request of an ``authorized employer''.
    Mr. Chairman, NASCO has actively endorsed and supported prior bills 
intended to address these problems since the early 1990s. We offered 
testimony in support of H.R. 1534 in June 1993 when the House 
Subcommittee on Human Resources held two days of hearings, an earlier 
proposal sponsored by then-Congressman Matthew Martinez. Our support 
continued throughout the 1990s. We hoped that a solution was within 
reach when H.R. 2092, sponsored by then-Congressman Bob Barr, passed 
the House by a vote of 415-6 in 1996, and again when Congressman Barr's 
H.R. 103 passed the House by voice vote in mid-1997. Passage of S. 1743 
by the Senate has again raised our hopes.
    S. 1743 offers a more comprehensive proposal in response to our 
need for better background information access. It addresses not only 
the need for FBI checks in states that have already charged a specific 
agency with regulatory responsibility for private security without 
authorizing the federal background checks, but also offers a procedure 
by which background information can be obtained even in those states in 
which no regulatory body has yet been created.
    Regardless of whether a state has a regulatory agency or not, no 
additional expense will be imposed on the government because the cost 
of processing the fingerprint records will be covered by user fees. 
Should a state object to participating in this Homeland Security-
enhancing service for which the industry will absorb the cost, that 
state can exercise the ``opt-out'' option provided in the bill.
    Mr. Chairman and Members of the Subcommittee, NASCO thanks you for 
your attention in this security-critical matter. Please help us to 
provide better-screened security officers by passing S. 1743 now.

                      Letter from Warren B. Rudman

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
